<html>
<title> - FLEEING TO LIVE: SYRIAN REFUGEES IN THE OSCE REGION</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





          FLEEING TO LIVE: SYRIAN REFUGEES IN THE OSCE REGION

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2013

                               __________

 Printed for the use of the Commission on Security and Cooperation in 
                                 Europe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via http://www.csce.gov
                   
                   
                   
                   
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-502                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                  
                   
                   
    
    
    
    
    
    
    
    
    
    
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
               SENATE

                                                    HOUSE

BENJAMIN CARDIN, Maryland,           CHRISTOPHER SMITH, New Jersey,
  Chairman                             Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi            ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia             LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                New York
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
          FLEEING TO LIVE: SYRIAN REFUGEES IN THE OSCE REGION

                             JUNE 13, 2013

                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Michael Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    10
Hon. Alcee Hastings, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13

                               WITNESSES

Anne C. Richard, Assistant Secretary for Population, Refugees and 
  Migration, U.S. Department of State............................     3
Michel Gabaudan, President, Refugees International...............    18
Jana Mason, Senior Adviser for Government Relations, UNHCR 
  Washington Regional Office.....................................    21
Yassar Bittar, Government Relations and Advocacy Associate, 
  Coalition for a Democratic Syria...............................    25

                               APPENDICES

Prepared Statement of Hon. Michael Burgess.......................    40
Prepared Statement of Anne C. Richard............................    41
Prepared Statement of Michel Gabaudan............................    49
Prepared Statement of Jana Mason.................................    55
Prepared Statement of Yassar Bittar..............................    61

 
          FLEEING TO LIVE: SYRIAN REFUGEES IN THE OSCE REGION

                              ----------                              


                             JUNE 13, 2013

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 2:07 p.m. To 4:15 p.m. in 562 
Dirksen Senate Office Building, Washington, D.C., Senator 
Benjamin Cardin, Chairman of the Commission on Security and 
Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Sheldon 
Whitehouse, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Michael Burgess, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Alcee Hastings, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Anne C. Richard, Assistant Secretary for 
Population, Refugees and Migration, U.S. Department of State; 
Michel Gabaudan, President, Refugees International; Jana Mason, 
Senior Adviser for Government Relations, UNHCR Washington 
Regional Office; and Yassar Bittar, Government Relations and 
Advocacy Associate, Coalition for a Democratic Syria.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Good afternoon, everyone, and welcome to the 
Helsinki Commission hearing we're holding today on Syrian 
refugees in the OSCE region, ``Fleeing to Live.'' As chairman 
of the Helsinki Commission, I want to welcome everyone to 
today's hearing and thank them for their interest in our work.
    This hearing is convened as we prepare to commemorate World 
Refugee Day on June 20th. It is fitting, therefore, that we 
examine what is quickly becoming a great humanitarian disaster, 
and determine what more we here in the United States and, 
indeed, in the entire world community can do to alleviate the 
suffering of the Syrian people and assist those countries that 
have opened their borders to the refugees.
    According to the United Nations High Commissioner for 
Refugees, there are now more than 1.6 million Syrian refugees 
in neighboring countries, and more than 5.1 million displaced 
within Syria. An average of 8,000 Syrians are crossing into 
Turkey, Jordan, Lebanon, Iraq and Egypt every day. The majority 
are women and children. The refugees have increased the 
population of Lebanon by 11 percent, and Jordan by 8 percent. 
To put the enormity of this crisis in perspective, that would 
be equivalent in the United States of receiving 25 (million) to 
30 million refuges during the past two years. The host 
countries are under intense political, social and economic 
pressure. I commend them for keeping their borders open to 
those fleeing the ongoing violence in Syria.
    In February of this year, I led a commission delegation to 
the Middle East. While in Turkey, we visited Kilis, the refugee 
camp which shelters more than 13,000 Syrian refugees on the 
Turkey-Syrian border. It is one of 17 camps that have been 
established by the Turkish government. Just prior to our visit, 
the camp residents held an election: selected leaders for their 
temporary community. It was the first free election that they 
had ever participated in. They were excited about that.
    Our delegation met with those elected officials who shared 
stories of their triumph in leading their families to safety in 
Turkey. Their frustration with the lack of support from the 
international community was clear. These leaders repeatedly 
expressed their expectation that the United States would take 
more decisive action. Our conversations reinforced concerns 
that destabilizing elements may take advantage of the void of 
cohesive leadership in the opposition as time drags on.
    In December 2012, the U.N. High Commissioner for Refugees 
appealed for 1.5 billion (dollars) in contributions from the 
international community to meet the needs--then expected to be 
one million--to have fled across Syrians' border by mid-2013. 
United Nations High Commissioner for Refugees has already 
registered more than 1.6 million refugees in the region; 
however, the December appeal has not yet been fully met.
    Last week, The United Nations High Commissioner for 
Refugees issued its updated Regional Response Plan for Syrian 
Refugees and appealed for 2.9 billion (dollars) in humanitarian 
assistance, almost double its December 2012 request. They now 
estimate that by the end of the year, half of the population of 
Syria will be in need of aid. This includes an anticipated 3.45 
million Syrian refugees and 6.8 million Syrians inside the 
country. The governments of Lebanon and Jordan are also 
appealing for funds, and the humanitarian appeal for inside 
Syria is $1.4 billion. According to the United Nations, the 
total appeal for assistance for displaced Syrians in 2013 is $5 
billion. This is the largest humanitarian appeal in history.
    The United States is doing its best to provide aid to the 
Syrian people. Since the crisis began, we have contributed $514 
million in humanitarian assistance and remain the single-
largest donor of aid to the United Nations, U.N. agencies and 
the host countries themselves. Clearly, the unprecedented scale 
of this crisis requires the United States and the entire 
international community to do more.
    After more than two years, the violence in Syria continues 
and the humanitarian crisis it has spawned continues to spiral 
out of control with no end in sight. Sadly, and most 
disturbingly, not only does the violence in Syria continue but, 
according to the most recent report by the U.N.'s Independent 
International Commission of Inquiry on the Syrian Arab 
republic, it ``has reached new levels of brutality.'' The 
Commission states that the report, ``documents for the first 
time the systematic imposition of sieges, the use of chemical 
agents and forcible displacement. War crimes, crimes against 
humanity and gross human rights violations continue apace. 
Referral to justice remains paramount.'' That was what the 
report said.
    We must, and we can, do more to help the Syrian people. I 
look forward to hearing the views of our distinguished 
witnesses that we have before us today so we can plan an 
effective strategy to help accomplish that goal of protecting 
the Syrian people.
    Let me acknowledge my colleague, Senator Whitehouse, and 
recognize him for any opening statement that you might want to 
make.

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. Only very briefly. I want to let folks know 
that I recently went on a bipartisan CODEL that was led by 
Senator McCain. I've since been back to the region. We met with 
the Syrian Opposition Council. We went to one of the refugee 
camps and there was, I believe, unanimous bipartisan sentiment 
on the part of all of the travelers on that CODEL that we 
needed to improve and increase the United States' effort in 
Syria and improve and increase the United States' effort in 
Turkey and in Lebanon, where the refugee problem is the most 
acute. We have allies who are facing very considerable cost 
and, indeed, even political risk in those two places because of 
the inadequacy of the American and international response. We 
communicated those views to the administration, and I hope this 
helps communicate them further.
    Mr. Cardin. Well, Senator Whitehouse, let me thank you for 
taking the time to visit. I know that--how much they appreciate 
when we all--personally take the time to visit and see 
firsthand the circumstances on the ground and are able to talk 
to the people who are directly impacted by this crisis.
    Our first panel today we will receive testimony from the 
Assistant Secretary of State for Population, Refugees and 
Migration, Ann Richard. Prior to her appointment as Assistant 
Secretary, Ms. Richard was Vice President of Government 
Relations and Advocacy for the International Rescue Committee. 
She also served as the Director of the Secretary of State's 
Office of Resources, Plans and Policy, and was Deputy Chief 
Financial Officer of the Peace Corps. We thank you for your 
service and we look forward to your testimony.

 ANNE C. RICHARD, ASSISTANT SECRETARY FOR POPULATION, REFUGEES 
            AND MIGRATION, U.S. DEPARTMENT OF STATE

    Ms. Richard. Thank you, Mr. Chairman. Thank you, Senator 
Whitehouse. And I really want to thank the entire committee for 
pulling together this hearing today on this important subject, 
and I want to thank you both for traveling to the region and 
for meeting directly with Syrians who are in need of our help, 
and leaving this town and going out there and talking directly 
to the people affected. Thank you so much.
    The crisis in Syria has caused the world's largest refugee 
emergency in decades. I'm grateful for this opportunity to 
update you on the impact this crisis is having on countries in 
the region and steps our government and the international 
community are taking to help governments in the region address 
this massive challenge.
    My written testimony offers detailed information about the 
extremely dangerous situation inside Syria, as well as the 
effects of refugee influxes on the neighboring countries of 
Turkey, Jordan, Lebanon, Iraq and Egypt. This afternoon, I 
would like to focus on just a few key points and then I'll be 
glad to answer your questions.
    This is the largest and most complex humanitarian crisis in 
the world today as you said, Mr. Chairman. Some 5.8 million 
Syrians have fled for their lives. Of this, an estimated 4.2 
million Syrians are displaced inside their own country and 1.6 
million Syrian refugees are in neighboring countries. More than 
500,000 Syrians have fled to Lebanon. Jordan and Turkey each 
are rapidly approaching that number as well. More than 150,000 
have sought refuge in Iraq and nearly 80,000 have made their 
way all the way to Egypt.
    With disturbing frequency, Syrian families are fleeing not 
only because they fear an imminent threat of conflict or 
atrocities in their communities, but also because they are 
desperate to reach the essentials that are no longer reliably 
available in their communities, such as clean water, medical 
care and basic shelter. U.N. humanitarian officials project 
that the number of Syrian refugees could climb to 3.5 million 
by the end of this year, more than double the current number. 
The number of refugees could surge to far more than that if, 
for example, violence in Damascus itself were to intensify.
    Last week, the United Nations called for $4.4 billion to 
address emergency needs inside Syria and in neighboring 
countries that are struggling to accommodate huge refugee 
populations. It was the largest humanitarian appeal in U.N. 
history.
    The U.S. is providing nearly $515 million to support 
emergency humanitarian assistance programs for Syrians, 
including nearly 260 million (dollars) to protect and assist 
Syrian refugees. We are looking closely at providing additional 
financial support in coming weeks as the emergency continues to 
grow.
    The governments of Turkey, Jordan, Lebanon, Iraq and Egypt 
have worked hard and at great expense to accommodate the flood 
of refugees that are inundating their local communities. One of 
our most important priorities is to encourage countries in the 
region to keep their borders open so that Syrians desperate to 
reach safety can do so. We continue to urge neighboring 
governments to offer asylum to all Syrians who cross the 
border. We recognize the tremendous burden that hosting 
refugees is placing on neighboring countries. Our government's 
strong financial support for refugee relief operations helps 
alleviate this burden, and we are committed to doing more to 
support Syria's neighbors.
    Seventy five percent of Syrian refugees are women and 
children. They typically are the most vulnerable to sexual 
violence and exploitation, domestic violence, poor health care, 
forced early marriage, survival sex and long-term trauma caused 
by the dangers and atrocities they experienced or witnessed in 
Syria. I have traveled to the region four times in my tenure as 
assistant secretary, and each time I have met with Syrian women 
and children to hear their stories.
    One of our ongoing priorities is to provide the safe 
shelter, education and therapeutic activities that refugee 
women and children desperately need. Most Syrian refugees do 
not live in refugee camps. They instead have taken shelter in 
villages and cities where local residents have generously 
shared what they can. During the second half of 2013, we will 
place a priority on giving more help to these local communities 
that are struggling to accommodate the large Syrian refugee 
population.
    The presence of so many refugees has inflamed local 
tensions in some areas and has aggravated local pressures. If 
these communities are to continue hosting Syrian refugees, they 
will need help. We must strengthen bilateral economic and 
development aid to help maintain and expand public services for 
refugees and the local residents alike.
    Another priority as we move forward, Mr. Chairman, will be 
robust contingency planning. The current humanitarian 
challenges are great, but these challenges will only grow 
larger. Regrettably, we must plan ahead for even more 
scenarios. We will continue to engage in frank discussions with 
U.N. humanitarian agencies and refugee-hosting governments 
about the possibility of massive new refugee surges and other 
contingencies. It is critical that we prepare now for what 
might come in the future.
    Mr. Chairman, I hope to depart later this month on my fifth 
trip to the region. Deputy Assistant Secretary Kelly Clements 
is traveling in the region this week. Our bureau bases refugee 
coordinators in the region, deploys humanitarian advisers to 
identify humanitarian needs, analyzes and reports on challenges 
and monitors programs. We work very closely with all the U.S. 
embassies in the region, and we have very good working 
relationships with them. And they are working night and day.
    This is a regional crisis, and it has our full attention. 
We deeply appreciate the strong congressional support that has 
made our efforts possible. We are always ready to brief you and 
your colleagues about what we are seeing and the actions we are 
taking. So in closing, let me thank you again for holding this 
hearing, and I welcome any questions you might have.
    Mr. Cardin. Well, your entire statement, as will all the 
witnesses', will be made part of the record. So just want all 
of you to be aware of that. And thank you for what you're doing 
and thank you for returning to the region.
    We need a dual strategy here. We've got to deal with Syria 
and the crisis in Syria so that it is safe for people to live 
in Syria, that will allow a certain number of the refugees to 
be able to return to their homes in safety. That clearly has to 
be a priority. And the message we heard very clearly from the 
people who have been victimized and the opposition leaders said 
they need more decisive international action and more 
predictable action. And I'm going to talk about that in a 
moment.
    The second area of priority is to protect the people who 
are now vulnerable, whether they're living in refugee camps, 
whether they're living in communities outside of Syria or 
whether they're displaced within Syria. And you point out, 
particularly with those who have left, the large majority are 
women and children. You also point out that there are 
widespread abuses: forced marriage, prostitution, et cetera. 
What are we doing to protect the women and children?
    Ms. Richard. Thank you for asking that question. It's very 
much on my mind on a daily basis. As you know, there have been 
reports of gender-based violence, including sexual violence. 
We're working closely with our humanitarian aid agency partners 
to beef up protection for vulnerable refugees. We are concerned 
about the allegations of exploitation of Syrian refugee women 
and girls through early marriage, in addition to the violence.
    And protection of these populations is a core part of what 
our partners do. If you--if you read their documents, they 
don't just aid people. They try to protect and aid them. But in 
some of the largest--in on the largest camps, in Zaatari camp, 
in Jordan, this has proven very, very difficult. Right now, we 
are working with the government of Jordan, with our embassy in 
Jordan and other bureaus of the State Department to enhance the 
security of that camp overall. And we're trying to look at ways 
the U.S. can help the Jordanians, who have the responsibility 
for the camp's protection, to beef that up and also potentially 
to help people inside the camp, some of the Syrians who live 
there, to mount their own neighborhood watch so that they're 
protecting themselves, each other.
    That camp grew so quickly over such a short time period, 
with so many people coming in, I think that is one of the 
reasons that it has problems today. So in the camp, we are 
increasing the number and reach of gender-based violence 
awareness sessions. There is a women's clinic. I was up in New 
York yesterday talking to the head of U.N. Population Fund, Dr. 
Babatunde Osotimehin, about that clinic, where it is, making 
sure that it has services. There's also a clinic run by IMC and 
others. We want women to have counseling services if they have 
been victimized.
    One of the things I just learned about was we're using 
children who go to the child-friendly spaces to get word to 
their mothers, if they need help where they can go and get it, 
which in that culture makes a lot of sense. I've met with the 
head of the Jordan Health Aid Society, JHAS, and talked to him 
a lot about this, because they have mobile clinics that go to 
neighborhoods then to reach people who are not in the camps. We 
also fund just generic health programs for urban refugees.
    Some of our nongovernmental organization partners are 
providing training to ministries of health to be sensitive to 
the situations and sensitive to these needs. You know, our 
funding that goes to the U.N. High Commission on Refugees, 
UNICEF, U.N. Population Fund and these international 
nongovernmental organizations are in part to coordinate 
protection and services to aid and protect women and girls in 
the region. So we're doing a lot. I think we need to do even 
more. And I'm afraid that's going to be a theme of several of 
the issues we may be talking about today.
    But in this particular area, the good news, I guess, is 
that we're well aware of the need, and so we are focused on 
these programs. And this is where the U.S. is seen as in the 
forefront of putting pressure on these partners to do that.
    Mr. Cardin. Well, as I said in my opening comments, I'm for 
us doing more. So I agree with that. But I am for 
accountability. And U.S. participation must come with strict 
accountability to make sure that families are protected.
    You point out that a large number--I believe it's about 75 
or 76 percent of the refugees outside of Syria--don't live in 
camps. In camps we have a chance to see firsthand the resources 
that are available to protect families.
    Ms. Richard. Yeah.
    Mr. Cardin. But with three-quarters living outside of 
camps, we don't have that same opportunity. What do we do about 
the vast majority that is not living in an organized camp?
    Ms. Richard. Well, in some ways people living outside camps 
live a more normal life in that if they can get their kids 
enrolled in schools, if they can get some work, they can live 
among----
    Mr. Cardin. But let me say, do we have information that 
would let us know whether the abuses that are taking place 
against women and children are more prevalent in the camps or 
outside the camps, more prevalent in one country versus 
another? Do we have that type of information?
    Ms. Richard. I don't have the answers on that. My suspicion 
is that the camp--the Zaatari camp, not the camps in Turkey, 
but the Zaatari camp is a more dangerous place right now than 
living outside the camp because people are completely dependent 
on aid to survive and they don't have their own resources. And 
there is a sort of thriving underground economy that's 
partially run by criminals that has got to be stamped out. And 
so that's where people, I think, are vulnerable to 
exploitation.
    Outside the camps--this is why we're big supporters of 
refugees being registered by the U.N. High Commissioner for 
Refugees because then they--who they are, where they've come 
from, what their needs are, what their special needs are if 
there's someone disabled or elderly, that gives a profile of 
what the needs are, and that way they can get the help that 
they need. We can provide it through our NGO partners.
    Mr. Cardin. I understand the registration; it's so that 
they can get services. Are they getting the services? They 
getting the help?
    Ms. Richard. If they're registered, then they're on the map 
and they're getting help they need, definitely, yes. Is it 
enough to survive? I think it's a very challenging existence, 
as it is for refugees everywhere. I mean, it's not a 
comfortable existence.
    Mr. Cardin. Well, I would appreciate more information being 
made available to us by camps and countries and regions. I 
believe Senator Whitehouse went to the same camp I did--was it 
Kilis that you went to? And that's really an incredible 
investment by Turkey to have the camp and the schools there.
    Mr. Whitehouse. Lebanon.
    Mr. Cardin. You were at a different one? But I was very 
impressed by what I saw, but I also--believe that's not 
typical.
    Ms. Richard. That is not the typical camp, yeah.
    Mr. Cardin. Right, circumstance. So, I don't want to be----
    Ms. Richard. In Turkey, the standards not only meet but 
they exceed international standards for refugees. And it's 
tremendously generous.
    Mr. Cardin. So, let me ask one last question. How do we 
make sure the resources get to where they need to be? If we're 
going to put more money up, how do we make sure that we get 
that to the most vulnerable to protect them?
    Ms. Richard. My strong belief is that the most important 
thing we could do is get other countries to contribute and 
donate because I think that the nongovernmental organizations 
and international organization partners we're working with know 
what to do. And I think the U.S. is out in front in 
contributing, but we know that there aren't enough resources 
coming to respond. And so I think the most important thing for 
us to do as diplomats and the State Department is to get other 
countries, convince them to join us and to take this as 
seriously as you all are taking it and as my boss, Secretary 
Kerry, is taking it.
    Mr. Cardin. Senator Whitehouse.
    Mr. Whitehouse. Thank you, Chairman. I have to go down to 
the classified briefing that we're having, but I wanted to 
thank you for the attention that you're bringing to this issue. 
And I just wanted to propose to the assistant secretary that I 
recognize that America has spent a lot of money and put a lot 
of effort into supporting the opposition and into supporting 
the refugee population coming out of Syria, but it's possible 
to spend a lot of money and spend a lot of effort and still be 
behind the curve, still be that day late and that dollar short.
    And I worry from what we're seeing--from what I've seen in 
the press, from what I've seen in my visits to that area, that 
we've been just behind the curve on supporting the opposition, 
and the momentum as a result has shifted to the point where at 
one point the administration was saying that, you know, Assad's 
days are numbered, and now people are saying, well, looks like 
he's winning.
    And in terms of support for the refugees, it seems that 
we're always just behind the curve so that the burden on the--
on our local allies is always so great that it's potentially 
destabilizing. And we have few better friends than the Turkish 
government and then King Abdullah in that area, so I would just 
urge you that it's not so much how much we're spending; it's 
whether we're on the right side of the curve and whether we're 
on the right side of the momentum. And it looks to me that 
despite our efforts, we remain both a day late and a dollar 
short in both these things.
    And the incremental marginal difference not to be a day 
late and a dollar short against what we're spending may not be 
a very big difference, but strategically I think it's all the 
difference. So, I, for one, would urge you to take the message 
back to the administration that there's considerable support 
for trying to make sure you're actually at that point where the 
momentum is with you and you're ahead of the curve.
    Mr. Cardin. Thank you.
    Mr. Whitehouse. Thank you.
    Mr. Cardin. You mentioned that we want to get more 
contributions from the international community to the United 
Nations. What can the United States do to encourage U.N. 
contributions from other countries to be made?
    Ms. Richard. I think that in all of our meetings with other 
countries on a whole variety of issues, we need to add this to 
the talking points and we need to encourage them to give and 
encourage them to do what you did, which was to travel to the 
area.
    You know, the economic downturn a few years ago has meant 
that traditional donors like the Europeans are not expanding 
their giving. And everyone has put the hopes on emerging 
donors--so-called emerging donors. These are countries in the 
Gulf area but also the BRICS--Brazil, Russia, India, China, 
South Africa. And so we have seen generosity from some of these 
countries in the past but not necessarily through international 
organizations. Sometimes, some of these countries prefer giving 
bilaterally or giving things instead of contributing cash. Cash 
is always more helpful, especially when it goes to 
professionals who know what they're doing. So, my sense is that 
we have to look for every opportunity to have these 
conversations, invite these officials to come travel with us, 
encourage them to attend international conferences we have. Our 
diplomats are out traveling.
    I think another piece of this is--which I'm doing with 
colleagues--is speaking through the media to raise the profile, 
to point out the shortages in the funding. I know the Helsinki 
Commission has relationships overseas, and so I know you all 
are well-placed to have those kinds of international 
conversations about these very, very serious issues.
    Mr. Cardin. That's a very good point. Whenever I travel to 
an area that's affected by refugees, I try to visit refugees. 
So, when I was in Syria two years ago, two and a half years 
ago, I visited the Iraqi refugees. Are the Iraqi refugees 
heading back to Iraq? Where are they?
    Ms. Richard. Many of them have headed back to Iraq. And I, 
like yourself, I visited Iraqi refugees in Syria a few years 
ago. And at the time, I thanked all the Syrians I met for 
hosting them, so it is a sad and cruel turn of events that 
Syrians are now fleeing their own country.
    Many of the Iraqis have gone back to Iraq. Others are 
moving on for a second time. We have been working very hard to 
help Iraqis get out of Syria. It's very tricky because we can't 
do interviews of refugees in the country, so we're working with 
other countries to help get Iraqis out if they were in line to 
come to the U.S.
    Mr. Cardin. How do you assess the risk factor that borders 
may not be as open as they are today? We have been very 
fortunate and we have complimented the governments from Turkey 
to Jordan to Lebanon, where there have been borders that have 
been available for people fleeing persecution and danger. The 
numbers are extreme in these countries and there's at least 
conversations that that policy--that these policies could 
change. How great of a risk is it that borders could be less 
than freely opened?
    Ms. Richard. I think it's a real and live concern, and this 
is why in all our conversations with the neighbors, we thank 
them. We are usually trying to provide additional help so that 
they understand that we understand their tensions, their 
domestic tensions in trying to help their own citizens and then 
shoulder the burden--the additional burden of taking in 
refugees. And then we've been very vigilant in talking to these 
countries when there are difficulties at the borders about, you 
know, really pushing them to keep them open. It's a very 
serious issue.
    You know, I think of Jordan where they have Palestinian 
refugees who've been there for decades. And then they took in 
Iraqi refugees, so this is actually the third population of 
refugees coming to a very small country. So the one thing that 
gives me hope there is that the king has been very forward-
leaning in saying that they must allow people to cross, out of 
humanitarian motives. But it's clear that inside the country 
this creates some domestic tensions, and so that's where our 
help to not just the refugees but to the local communities, 
especially impoverished communities so they don't feel that 
things that they deserve are going to these visitors and that 
they are somehow disadvantaged by this. Aid to local 
communities is very important.
    Mr. Cardin. King Abdullah was here not too long ago, and he 
was pretty firm about his commitment to keep borders open. But 
when you start looking at the numbers, you know that it's a 
challenge. I think he has some domestic concerns. I mean, I 
think there is a real serious question being raised on these 
issues.
    Dr. Burgess, good to have you here.

HON. MICHAEL BURGESS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Burgess. Thank you, Senator.
    Mr. Cardin. We're about completed with this panel. Would 
you like to ask a question--sort of give you a chance to jump 
in here.
    Mr. Burgess. Thanks, Chairman, I would. And, Secretary, 
once again, thank you for speaking with me earlier this week to 
give me some background.
    Ms. Richard. Thank you so much for your interest in this 
issue.
    Mr. Burgess. Well, I got to tell you I'm very concerned. 
And, I mean, you raised some serious problems that are being 
faced by the three countries that are bordering Syria. And 
shortly after our discussion, I had an opportunity to read an 
article in the L.A. Times about perhaps resettlement plans to 
the United States for Syrian refugees. And I got to tell you 
that got my attention; that certainly aroused a significant 
amount of concern.
    I think we are--several of us are wondering what the 
position is of the administration going forward. I recently 
took a trip to Kabul and on the way there stopped in the United 
Arab Emirates, and the emir of that country voiced some concern 
as to what seemed to be an inconsistent policy toward Syria. 
And I know they're working with their other partner-countries 
to try to have a unified response, but I'll just tell you the--
I don't want to say lack of direction because that's really not 
quite fair, but the fact that there is a confused analysis or 
what appears at least in the press to be a confused analysis--
hundreds of thousands of people pouring over the border to 
neighboring countries, and now you have people talking in our 
press about resettlement of refugees in this country, all of 
that on top of the possibility that the United States should 
take some additional action in Syria. But I've got to tell you 
that concerns me, and it concerns the people that I represent 
back home.
    So, what can you say to mollify me today to assuage those 
concerns, to reassure me that there is a consistent policy 
coming out of the--out of the department and the White House, 
that there is a road ahead, there's a trajectory that--a 
strategy that's been defined and a trajectory that's being 
followed?
    Ms. Richard. Well, you'll understand I'm authorized to talk 
about the humanitarian piece of this, and we have been 
consistent on this as we have been in other crises, where we're 
the world's leader in contributing to the response--to the 
international response.
    You know, many of us hoped that this would be a short-term 
crisis and that the people who I've met in the Middle East 
living in camps and living in villages would have been able to 
go home by now. And the longer this has gone on, it has meant 
that not only that more people are coming across but that the 
road back home will also be more challenging because so much of 
Syria has been bombed and is ruined, and so many horrible 
things have happened that there are children who really have 
been traumatized and so getting over that will be very, very 
hard.
    In terms of resettling refugees in the United States, you 
may know that each year the U.S. leads the world in accepting 
thousands of refugees to come and restart their lives in the 
U.S. We tend to take the most vulnerable people, for whom there 
is no going home. Sometimes it's ethnic minorities, sometimes 
it's female-headed households with lots of children who, you 
know, have no way of making it on their own overseas but can 
get a fresh start in the U.S.
    We're hoping to bring 70,000 refugees to the U.S. this 
year. That's just a drop in the bucket compared to the 42 
million, 45 million displaced people in the world or the 1.6 
million Syrian refugees in the region. And these 70,000 come 
from all over the world. The top countries are Iraq, Burma and 
Bhutan right now.
    So, when I've been asked if we would be open to resettling 
Syrian refugees, I've said yes. But we're going to follow the 
recommendations of the U.N. High Commissioner for Refugees. We 
don't bring people quickly. We generally have refugees go 
through a process where we check their stories and we work very 
closely with partners--organizations but also the Department of 
Homeland Security, who gets to determine who is a bona fide 
refugee by U.S. standards; not just international standards but 
by U.S. standards.
    So, I could foresee a time when some refugees will come 
here from Syria, particularly if they have some situation where 
they really feel they can't go home again. We have brought only 
a handful so far, and I don't think it's going to happen 
quickly and I don't think it's going to happen in very large 
numbers. One reason to do it, in addition to help those 
refugees themselves, is it will demonstrate to these countries 
in the region that they're not the only ones hosting refugees. 
Germany, for example, has done that. They have offered to take 
5,000. When Germany offers that, they mean temporarily. When 
the U.S. offers refugees a fresh start in the U.S., we 
generally mean permanently. If they're happy here--and most 
refugees are very successful here--then they often become U.S. 
citizens over time and stay.
    Mr. Burgess. Well, actually, let me ask you this. Because 
the area that I represent back in Texas--part of Tarrant County 
and a good chunk of Denton County--we actually have two groups 
of refugees that have been settled by the State Department in 
the 10 years that I've been in Congress. I will say that I was 
surprised when I found that they had been resettled in the 
area. And I would have thought--I was a relatively new member 
at that point, and I would have thought there would have been 
some conversation with the representative from that area, 
recognizing that there was this enormous responsibility that 
was coming to the neighborhood and where the congressional 
office could be helpful with the municipality, with the county 
government, with local aid agencies. I thought there could have 
been a better coordination of that activity. But that's just 
been my own experience in the brief time that I've been in 
Congress.
    I'll just say again I've remained very concerned about what 
I'm seeing and what I'm hearing. I don't see a good answer to 
this, but I do want to convey the message that there needs to 
be a strategy developed. There needs to be--of course, 
obviously, the administration does need to work with the House 
and the Senate about whatever type of military activity might 
be contemplated. And we all need to think through the timeline. 
If the--you know, I came here after the authorization for 
(acting ?) in Afghanistan had already occurred, but if there's 
one thing that's become painfully apparent over the last 10 
years it's the lack of the definition of a timeline, the lack 
of adherence to a timeline that has caused a great deal of the 
difficulty. It even leads to some of the ambiguity that we see 
today in--as far as our relationship with those two countries.
    But, I thank you for your time being here. Thank you for 
the effort to educate me about this earlier in the week. And, 
Mr. Chairman, I'll yield back.
    Ms. Richard. Thank you. Can I just mention one thing? You 
know, I agree 100 percent with you on the need to make sure 
that local elected officials know about the refugees coming to 
the areas that they represent. And not only do I agree with 
that but the Government Accountability Office also came out 
with a report saying we have to do even more of it than we have 
been in the past. So, this is one of my priorities in the 
admissions program, is to make sure we're talking to the mayor, 
the head of the school board who's going to be seeing the--you 
know, the teachers are going to be seeing these kids come in; 
to make sure that people in the neighborhoods understand who 
their new neighbors are and why they're coming. Why this is an 
American tradition and why it has been successful, and really 
to allay people's fears and make sure we're very careful in 
where we bring people.
    Mr. Burgess. OK, thank you.
    Mr. Cardin. And I will point out that there are some 
efforts being made in the immigration reform bill to give a 
little better direction on these programs and numbers, we have 
our differences with how the law has been implemented, but we'd 
like you to move faster, in some cases, than you've been able 
to move. We understand homeland security, we understand the 
procedures, but these people are extremely vulnerable so I 
think definitive action is important and we need to have the 
resources in place to be able to deliver on what we claim to be 
our international responsibility to accept refugees.
    We're joined by the long-time leader of the Helsinki 
Commission, who has been going through a change in his body as 
far as getting new parts, so we welcome him back from his 
surgery. He still has that smile. Congressman Hastings.

 HON. ALCEE HASTINGS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Thank you very much, Senator, and thank you 
so very much for holding this hearing.--I don't know how Dr. 
Burgess got over here faster than I did from our vote on the 
House, but I apologize for being delayed and I apologize to the 
secretary and other witnesses and all that are assembled.
    Senator, this is an extremely important hearing, and I know 
that Secretary Richard's portfolio contemplates many of the 
things--in light of the fact that I am late, I really will ask 
first that the statement that I would have made at the opening 
be put in the record by unanimous consent.
    Mr. Cardin. Without objection, it will be included.
    Mr. Hastings. Thank you so very much.
    Mr. Cardin. Dr. Burgess's statement will also be put in the 
record.
    Mr. Hastings. All right, I deeply appreciate that. Senator, 
you and I in January were in Kilis. Secretary Richard, we saw 
the extraordinary work that the government of Turkey is doing 
with reference to our refugees. They are building two camps 
now. And in the midst of all of that, new matters have arisen 
regarding the Turkish government with reference to their own 
internal politics.
    The stress that the Syrian people are experiencing, with 
1.6 million refugees--at least 1.3 million of them registered--
and being scattered to the wind, for lack of a better 
expression, I'd like for you to give me your overview with 
reference to your opinion and the administration's opinion, 
with reference to the effects of this refugee crisis on the 
governments of Jordan, Lebanon and Turkey. And what, if 
anything, aside from the fact that the United States government 
should be proud of the fact that they are the largest of the 
contributors, but my understanding--and we will hear later, I 
believe, from UNHCR that they're requesting $5 billion, and so 
the amount that we have contributed thus far for humanitarian 
aid is just not sufficient.
    Let me put my bona fides on the table. The senator 
mentioned that I had been involved in the Helsinki Commission 
for a long time. We have some extraordinary people up here that 
work with us and have worked with us for a long period of time. 
We've been in and out of that region frequently, and I don't 
recall that anybody on your staff--and I'm not resentful at 
all--have ever asked me a single question about anything, and I 
believe I know more about the Middle East than most of your 
staff, at least, if not you. And the reason being for no other 
reason than I've been there, and I've been there often. And I'm 
not bragging; I'm just telling you what is a fact. When I speak 
about the king of Jordan, I'm speaking about a friend. I 
served, just for your information, eight years on the 
intelligence committee. Need I say more regarding how important 
Jordan is and the implications for all of this?
    I'd like for you to tell me what's happening with Iraqi 
refugees that went to Syria. Where are they? I'd like for you 
to tell me what's happening with refugees as it pertains to 
Russia and what's happening to refugees as it pertains to Iran. 
And then I'd like very much at some point for you and I to have 
a conversation so I can edify you regarding some things we 
missed. When I met with Assad in 2010, I knew that he was not 
going to accept any terms at all, and I know that now. And I 
don't know what the plan is. I join Dr. Burgess in saying that 
I'm not certain as to what we are going to do. But I know what 
we should have done; that we didn't do. And somebody needs to 
speak up around here when these matters are ongoing.
    You were not in the Department of State when Rwanda was 
going on. My good friend, and the senator's good friend, and 
Dr. Burgess didn't get to know him as well--Donald Payne and I 
begged the State Department to call that genocide. And it 
wasn't until many years later that it was put on the bubble and 
called for what it was worth. Now, I said I wasn't going to say 
very much, but I am--I'm beside myself when I see children and 
women and--different from Dr. Burgess, I attended a function in 
Broward County, Florida, in December, and there I was stunned 
that there were 1,700 Syrians that--Syrian nationals that were 
at that function. They live in the congressional district that 
I represent, so you don't have to tell me very much when 
they're coming there. They tell me.
    The point that I'm making to you is I've seen the slowdown 
on Iraq with refugees. We have people that helped us, who 
helped American soldiers; interpreters that helped them, people 
that saved American lives, and they were left by the wayside. 
And it wasn't until a substantial amount of time before we 
began to accept people. We need to have a process in place with 
reference to the Syrians that allows that we can expedite--I 
wanted to ask you, and perhaps I'll wait until we meet 
personally--to ask you if you say 70,000 are coming, I'll make 
you a bet before the end of the year we won't have 2,000 or 
3,000. And if not, then correct me and tell me the `when' of 
it, and why there will be an accelerated pace for the 
acceptance.
    I hope you don't take my attitude about this to mean that 
it's directed towards you or the secretary of state. But 
something is drastically wrong with our lack of communication 
when I can cite to you right here four people that have been on 
the ground, that are sitting behind me, that have been on the 
ground in this issue, and that I have dealt with it from the 
Maghreb all the way back across the board for the greater 
portion of the last 16 years. And I rarely, if ever, unless I 
force the issue, hear from anybody from the State Department. 
That doesn't make sense to me. That's just--not because I'm 
important or you're important, but that we as a government are 
and that we're doing things and there's no communication.
    There was no brief-out after the senator and I and the 
delegation that we were with went to Kilis. Nobody asked us 
about who we met with in Turkey or what we did while we were 
there. Nobody asked us about the fact that we were going there 
from Israel and the implications for all of this as it pertains 
to Israel. In there somewhere is the question.
    Thank you very much.
    Ms. Richard. Congressman, I want to assure you that I'm 
quite certain you know more than I do about the Middle East 
because that is not my area of expertise, and many of the 
refugee crises that I have worked on in the past were Burmese 
and Thailand and also throughout Africa. And like Senator 
Cardin, the first time I went to the Middle East it was for 
meeting with Iraqi refugees. And this is why I rely so much on 
the experts in the Near East and Asia Bureau of the State 
Department because I know that without that historical context, 
without understanding the unique situation of each of these 
countries, you can't really understand what's happening with 
the--with these governments, the precarious situation they're 
in, and, you know, all the many rocks upon which this 
humanitarian enterprise could founder.
    Taking these countries, then, that you've mentioned, I'll 
start with Turkey since both you and Chairman Cardin have been 
there. As we said, their response is far and away the best 
response to refugees there has ever been on Earth, probably. 
They have been tremendously generous. Part of the dilemma they 
have is that they started this when there were fewer refugees 
coming across, and now it is becoming a very expensive 
enterprise for them to support that many refugees in the way 
they would like to, where they not only meet international 
standards; they exceed them. And so I've been there a couple 
times to two different camps.
    And I have thanked the Turks with whom I met for their 
generosity. And we have looked for ways that we could provide 
support. They--once the numbers really started to grow, they 
asked us to provide funding directly to them, and we explained 
that our humanitarian assistance appropriated by Congress is 
used not to pay governments directly but to go through these 
trusted international organizations and nongovernmental 
organizations. So, we have looked for ways to offset some of 
their costs by, for example, the World Food Program, which--to 
which the U.S. is a top funder. Not my bureau; USAID does that. 
But to fund a card that the Turkish Red Crescent gives to 
refugees so that they can go shopping on a local market. And 
it's much better for the mental outlook of the refugees. It's 
better for the locals because they have customers coming and 
shopping and buying their products, and it's--all in all, it's 
been a beneficial thing, then, offsetting costs that the 
government and the people of Turkey would have to fund.
    So, it hasn't been completely problem-free, but I think--
Turkey has really moved quickly to host large numbers, build 
lots of camps, 17, and more under construction, and to provide 
a really outstanding level of support to refugees.
    In Jordan, we have close ties but Jordan is not as 
economically advantaged as Turkey is, so we have a bilateral 
relationship that has--not run by my office but to provide 
assistance--economic assistance to the government to help with 
their own needs of their own people, especially impoverished 
people who live in Jordan. And then also we are working very 
closely with U.N. High Commissioner for Refugees to provide 
help to refugees in Jordan. Some are in camp; some are living 
in the villages in the communities. And we're trying to get aid 
to both groups and it requires different approaches for each 
group. We meet often with the Jordanians. We visit often. I 
talk every week to the U.S. ambassador to Jordan. He is 
intensely interested in what's going on and, you know, really 
has his finger on the pulse of what's happening. He talks to 
everybody; from refugees who he meets with when he visits the 
camps, to the king.
    In Lebanon, because of the way they are governed, it is 
harder for us to have that close a relationship in terms of 
bilateral aid, and so we really rely more on the international 
organizations. I have, however, met with the prime minister of 
Lebanon, I've met with the president of Lebanon; I have assured 
them I care what happens there. We want to make sure that they 
are not forgotten in this situation. They are used to tensions 
in their own country and--but, you know, Beirut is very, very 
close to Damascus. It's driving distance. It's just a couple 
hours away. And you really feel that when you're there.
    So, one of the things we've done lately is really try to 
bring more attention to Lebanon, and I've talked especially to 
the European--my counterparts in Europe about this because they 
may be able to do more in Lebanon whereas we could do more in 
Jordan, and trying to make sure both countries get the help 
they need. There are no camps in Lebanon to this date. The 
Lebanese took people in but they're also living in clinics, in 
schools, in partially completed buildings. You know, anything 
that has a structure turns into a shelter for refugees, so it's 
a very, very sobering situation.
    The numbers of refugees going to Iraq are fewer. My 
colleague, the deputy assistant secretary, Kelly Clements, was 
in Iraq. The last couple days, we sent her up to Erbil and then 
to Baghdad to investigate the situation for refugees there. As 
we were talking about a moment ago, not only are Syrians going 
to Iraq; Iraqis who'd fled Iraq are going back to Iraq. And so 
this is really heartbreaking. I mean, these poor people have 
been displaced twice.
    I'll have to get back to you on Russia and Iran. Iran, you 
know we have a program to help people flee Iran, so I don't 
know about Syrians going to Iran. Iran already hosts 1.7 
million Afghans, so, you know, this is a place where we are 
constantly working on the edges of in terms of refugee 
situations.
    I was on the State Department payroll when Rwanda happened. 
I was a civil servant. I had taken a leave to go help start the 
International Crisis Group. And as we went around and talked 
about the need for an organization like that, the Rwandan 
genocide was unfolding. And your former colleague, Steve 
Solarz, had left Congress at that point. I accompanied him to 
some of the meetings in where Rwanda became the case of what we 
had to not have happen ever again.
    And I can't hear Donald Payne's name without thinking of 
all that he did. You know, he was ``the'' expert on Africa. So, 
you don't have to convince me that sometimes members of 
Congress know more than State Department people because if you 
just mention Donald Payne, you rest your case.
    Let's see, in terms of bringing Syrians to the U.S. The 
70,000 refugees we intend to bring this year would come from 
countries in the rest of the world. The top three places we're 
bringing refugees right now are Iraq, Burma and Bhutan. Only a 
handful of Syrians were really anticipated when we put that 
number together. And the president, you know, proposed that all 
to you. So, by the end of the year, there may be very few 
Syrians who have come in. That is true. We will probably get 
all 70,000 refugees but they won't be Syrians. I appreciate 
what Senator Cardin said about trying to find mechanisms to 
bring in refugees who need to be brought to safety quickly; out 
of these situations quicker.
    You know, this has been a conversation we've had ever since 
we, the U.S. government, had to get some of these translators 
and drivers and those who'd helped--Iraqis who'd helped 
American troops out. And then, our procedures are deliberately 
designed to be super careful so that we don't let terrorists 
in.
    One thing that the State Department has set up, before my 
time, was to fund UNACR to have three places around the world: 
ETCs, where refugees can go if they have to get out of wherever 
they are, the place for them if the new country that they're 
headed to is not ready to take them yet. So, there's one in 
Romania. Somebody back here knows the other two.
    Mr. Cardin. Well, thank you for that comprehensive answer 
to Congressman Hastings. I'm just going to make an observation. 
You are correct, there is a reason for time to pass before we 
can resettle refugees, but the resources have not been made 
available in the right locations, so it could have been done a 
lot quicker. And there have been a lot of letters from Congress 
to the administration on this issue. Many of us have observed 
this first-hand and have tried to get the system working more 
efficiently, and we'll be glad to follow up with you on this 
issue, but I think you're going to see some additional 
congressional direction in order to expedite those that are at 
risk.
    Ms. Richard. We welcome that.
    Mr. Cardin. Thank you. Thank you very much for your 
testimony, appreciate it.
    Ms. Richard. Thank you all very much for your interest and 
for your travels, too. I appreciate that.
    Mr. Cardin. Thank you. We'll now turn to our second panel 
that consists of three experts on Syrian refugees and 
internally displaced persons. We have Dr. Michel Gabaudan, who 
is President of the Refugees International. He testified before 
the commission in 2008 regarding the plight of Iraqi refugees 
when he served as the United Nations High Commissioner for 
RefugeesRegional Representative for the United States in the 
Caribbean. Trained as a medical doctor in addition to holding a 
master's degree in tropical public health, Dr. Gabaudan's 
career at UNHCR has spanned more than 25 years.
    We also have Ms. Jana Mason, who is Senior Adviser for 
Government Relations and External Affairs at the Washington, 
D.C. office of the U.N. High Commissioner for Refugees. Prior 
to joining the High Commissioner's office, Ms. Mason was 
Director of Government Relations and Advocacy at the 
International Rescue Committee and also worked for 11 years 
with the U.S. Committee for Refugees.
    And then we have Ms. Yassar Bittar, who is Government 
Relations and Advocacy Associate for the Syrian-American 
Council in Washington, D.C. She is responsible for briefing 
congressional offices and the Department of State on the Syrian 
crisis and for grassroots mobilization with the Syrian-American 
community.
    We will start with Dr. Gabaudan.

       MICHEL GABAUDAN, PRESIDENT, REFUGEES INTERNATIONAL

    Mr. Gabaudan. Thank you very much, Mr. Chairman. And 
Chairman Cardin, Congressmen Hastings and Burgess, thank you 
very much for inviting me to testify to this very important 
hearing, which timing, of course, is fantastic, between the 
largest appeal of the U.N. and World Refugee Day.
    We have at Refugees International undertaken four missions 
to the region to the four countries hosting refugees and to the 
northern part of Syria in the past year and a half. And I will 
share with you my key impressions from these trips as we are 
preparing for our next one very soon.
    I think the Syrian crisis, the way it affects people, we 
have to look at under three different dimensions. First, there 
is the strict level of human suffering and humanitarian needs 
and how best to respond to these. I was certainly dramatically 
impressed a year ago when we met the children of the first 
families who had managed to escape Hama and Homs and who 
arrived in Jordan. And in 30 years of refugee work, I've never 
seen such a blank stare in small children, who should never 
have seen things that we regret to imagine.
    On the question of gender abuse, I was also quite stricken 
to the fact that the extent of violence against women inside 
Syria has led to families leaving in order to avoid being 
subjected to this sort of violence. I had never heard that in 
my life before. So there is a level of brutality to the 
conflict that is reaching almost unheard-of heights.
    The second dimension, of course, is the impact this refugee 
outflow is having on neighboring countries. We were absolutely 
pleased to be the tremendous welcome that Iraq, Jordan, Lebanon 
and Turkey have given to refugees with very open borders, with 
rather easy access to services and in general--and it's 
evolving--a pretty open attitude toward the international 
community in its ability to come and help.
    But this open-arms policy is slowing--is showing some 
strains right now. First, they are at risk of importation of 
the increasing sectarian nature of the conflict in Syria into 
neighboring countries, Lebanon in particular. And I think we 
should all be very happy to see that Lebanon hasn't done worse 
than it has done to date with this strict--this close 
relationship it has with Syria.
    But there is the impact in the local population. When we 
were in Jordan last year, the health and education ministries 
have seen their budgets cut by 25 percent, because of the 
economic situation of Jordan, at a time when they're offering 
access to schools and to the facilities to the very large 
number of Syrians they have. Now, that of course is something 
that a local population is going to tolerate for just a small 
amount of time. And at one point, they will say, what about--
what about us?
    So in general, what we're seeing right now, I think, is 
what we would call a reduction of the protection space in this 
country, which is certainly of great concern and needs to be 
addressed, not through the humanitarian means and response that 
we had, but perhaps, more to development aid, to the 
multilateral banks, et cetera.
    And finally, there is the situation inside Syria, where we 
see an increasing atomization of the power structures in 
different areas. And it has a series of impacts. The first one 
is that, as Assistant Secretary Richard mentioned, is that we 
are seeing now refugees who get out of Syria because of the 
breakdown in services, because of the very high price of 
commodities, not only because of the brutality of the conflict, 
because--but just because the living conditions are becoming 
unbearable.
    And that exit, if left to fester and to continue, of 
course, will make returns impossible. And the longer the 
refugees stay in neighboring countries, of course, the more the 
reactions of these neighboring countries are going to stiffen 
and to make protection difficult. So we are caught in a vicious 
circle. And in my view, we have to address the response to the 
Syrian crisis by looking at support for neighboring countries 
and what we can do inside Syria, in addition to the traditional 
means of delivering humanitarian aid to the refugees and to 
those Syrians we can access inside Syria.
    For the sake of time, I don't want to go over issues that 
you have covered in your statement, Mr. Chairman, and that Ms. 
Richard has also addressed. I would like, perhaps, to mention 
just two issues that we were quite stricken with. The situation 
in Lebanon and Jordan, for good reasons, because they have the 
highest number of refugees, have been largely covered and 
benefit from the large impact of the humanitarian community. 
Though things could be improved, they are on the radar screen.
    Iraq is much less, and the Kurdish Regional Government has 
responded almost singlehandedly to the refugee crisis. The 
appeals for Iraq have not been met at the same level as the 
others. But it's further complicated that the relationship 
between Baghdad and the Kurdish government make international 
aid much more difficult to get there. And I think this is 
something we have to try to see how we can break.
    The second issue is regarding Turkey. As was mentioned, 
their response was outstanding in the way they run camps. We've 
been to Kilis also--I think we all believe Kilis is perhaps the 
showpiece, probably the best of the camps. But even if the 
others are not as good, it's certainly well above average. The 
Turks have the tradition of responding to earthquakes; people 
coming to camps, and after six months, they go out. So they can 
afford a pretty high level of standards.
    In this case, they have now to maintain standards for a 
long time. I understand that the bill for one year is $1 
billion; they cannot sustain that. And all the Turkish 
officials we've talked to are appealing for international aid, 
but not international aid as we do in usual refugee 
emergencies; they want bilateral aid, because they have their 
own way of responding. And I don't think we should pretend that 
we should run the camp in their stead; not at all. But we 
should see how we can eventually support them, a difficult 
proposition, even though Turkey is a fairly wealthy country, it 
doesn't figure on the international aid targets.
    But they have shown also more willingness to accommodate 
international help in dealing with the growing population of 
urban refugees. And I think, as time goes, we will see a higher 
proportion of refugees living in cities. And we have to learn 
from the experience with Iraqi refugees, when the U.N. had some 
fairly creative ways to assist urban populations, ways that 
have not yet been into practice for urban refugees in the 
region.
    The last comment I would like to make, Mr. Chairman, is 
that of our assistance to programs inside Syria. Some 
international NGOs are having some problems bringing aid inside 
Syria, but there are a lot of recently created NGOs or loose 
association of Syrians that you find on the border.
    They are businessmen from Aleppo, they are former 
professionals who took refuge from Damascus because they were 
persecuted, they are Syrians working in the--on the diaspora, 
some working from--in the Gulf states, other Syrian-Americans 
who have left their business in the states, gone back on the 
border and tried to do what they can. They are completely out 
of the loop of international aid. And they are--these are 
people who think as we do about the future of Syria, and they 
are highly frustrated and diffident about the West that they 
see dumping them completely.
    I think it's a tremendous mistake because on the one hand, 
they could contribute, if properly assisted and perhaps 
trained, you know, coached, in delivering more aid inside 
Syria. They will also be essential in the period of recovery 
and reconstruction to have as allies. And I think, if we're 
missing the boat right now, we're condemning ourselves for the 
long run. It's not traditional to help these groups; there are 
perhaps some risks involved. But I think we should take these 
risks and give all the Syrians a chance to be recognized as 
bona fide recipients of the effort we are all making.
    In conclusion, Mr. Chair, I would like to say that unless 
we start supporting local organization, looking at development 
aid to the neighboring countries, we are not going to address 
the complexity of the crisis as required.
    And the last comment on appropriations, as it will impact 
very much where we are in 2014: The administration request on 
the migration and refugee account was 2 million (dollars) less 
than last year. We hope that the Senate, in its tradition, will 
boost this up. I hope more than in the past, because these 
funds will be needed next year. We certainly support very much 
the administration's request to boost the emergency refugee and 
migration account to $250 million; I think this is absolutely 
needed. And we certainly welcome the fact that the IDA has been 
tremendously increased.
    I know your comment, Mr. Chairman, on how to get others--
Europeans have been slow to respond, as usual. They have much 
less of an excuse as they try to have, in the case of Iraqis, 
where they said this is an American problem; let them fix it. 
They don't have that excuse at all in the case of Syrians. I 
think it's important that we seek ways to incorporate them. And 
perhaps the convenient--convening an international conference 
on the Syrian humanitarian crisis, you know, that UNHCR could 
do, as it did in the case of Iraq and did create a bit more 
visibility for the issue, would be a way forward and should be 
encouraged.
    Thank you very much for your attention, Mr. Chairman and 
congressmen.
    Mr. Cardin. Thank you very much for your comments. Ms. 
Mason.

  JANA MASON, SENIOR ADVISER FOR GOVERNMENT RELATIONS, UNHCR 
                   WASHINGTON REGIONAL OFFICE

    Ms. Mason. Thank you very much, Chairman Cardin and other 
members of the commission. I'd like to express, first of all, 
my appreciation for the chance to appear before you today and 
offer the perspectives and concerns of the U.N. Refugee Agency, 
UNHCR, regarding the humanitarian situation of displaced 
Syrians.
    Two days ago I returned from a 10-day trip to Jordan and 
Lebanon where I traveled throughout both countries and 
witnessed the staggering human consequences of the Syrian 
conflict. I had the opportunity to interview refugees in both 
countries. And I also met with government officials, NGOs, 
community members and, of course, my UNHCR colleagues in 
various parts of both countries. Two members of our delegation 
also traveled to Egypt during that time. I should mention 
Turkey was also on the itinerary initially but, due to recent 
events, we weren't able to go there.
    Very briefly, let me just mention UNHCR currently has three 
offices inside Syria and 13 in the five neighboring countries 
that now have received the majority of Syrian refugees. As 
mentioned, these are Lebanon, Jordan, Turkey, Egypt and Iraq. 
We currently have over 2,000 staff working in the region. UNHCR 
leads and coordinates the refugee response--the response in the 
host countries. And we work closely with host governments and 
with more than 100 U.N. and NGO partners.
    Inside Syria, since there was no lead agency for all 
internally displaced situations, we're part of a collective 
U.N. and NGO response led by the UN Emergency Relief 
Coordinator and the OCHA, the Office for the Coordination of 
Humanitarian Affairs. My remarks today are going to focus on 
our main observations and main messages regarding the whole 
crisis, and particularly on my visit to Jordan and Lebanon.
    My written statement includes additional information on all 
the countries that we work on, in addition to our operations 
inside Syria where we are providing much needed but very 
limited humanitarian assistance, understandably because of the 
security concerns. But if you're interested more on the inside 
situation, I can certainly follow-up with more information on 
that.
    As others have already noted, and as you noted in your very 
comprehensive opening statement, Mr. Chairman, and Mr. Hastings 
noted as well, there are at least 1.6 million Syrian refugees 
in the region. Of those, one million--I think this should be 
noted--one million of 1.6 (million) fled the country in the 
last six months alone. So we've seen it's not only the numbers, 
but it's the pace of arrivals and the escalation in recent 
months.
    Civilians have crossed borders in record numbers because of 
increased fighting and because of the way the fighting moves 
around, as we've seen, cities and towns taking control--or 
being controlled by different factions at different times. Many 
Syrians cross the borders after having already been internally 
displaced. We learned on the trip that in many cases Syrians 
are displaced two or three times before crossing a border. 
Crossing a border is sometimes the fourth movement.
    And this decision to cross a border is often taken in 
haste, at the last minute, because they're at imminent risk. 
Therefore, they arrive with almost nothing but the clothes on 
their back. As a consequence, they have few resources to rely 
on and are desperately in need of aid by the international 
community. We saw this with the Iraqis, but many of them had a 
little bit more time to flee and had resources that dwindled 
over time. Many of the Syrians don't come with these resources.
    It's also important to know, as has already been mentioned, 
that three-quarters of the refugees are women and children. But 
of this, three-quarters of the total women and children, but in 
most of the countries over half are children alone. In Jordan 
alone, 20 percent--or roughly 20 percent are under age five. So 
as many of my UNHCR colleagues have mentioned, this is in many 
ways a children's crisis.
    I've traveled to many refugees camps, as I--as I know many 
of you have, you always see a lot of children. But I was just 
struck by the number of children in Zaatari refugee camp and 
even in the urban areas. In Zaatari camp in Jordan, 60 to 70 
children are born each week. And that's one camp in one 
country. We saw a lot of--I saw a lot of newborn babies on this 
trip, so that's obviously very troubling, raises a host of 
protection concerns, as has been mentioned.
    One of the main messages I came away with from this trip--
which is not a surprise; it's been echoed by colleagues today--
is that the refugee numbers are putting enormous strain on the 
local communities. UNHCR and our partners provide a range of 
services, both to the--to the camp refugees and to the non-camp 
refugees. We call them urban refugees because they live in 
cities and towns. Sometimes urban means a small village; 
sometimes it means Amman.
    Increasingly, we're also providing assistance to the host 
communities as well, to the residents, local populations. The 
problem is that these communities have already been hosting the 
refugees for two years and they're now reaching the breaking 
point. I can't tell you how many times on the trip I heard the 
term ``the breaking point.''
    The problem is particularly acute in Lebanon where there 
are no camps and where refugees are housed in a wide variety of 
shelter, ranging from--if you can call it shelter, in some 
cases--ranging from rented apartments--which are probably the 
best, even though these are often substandard apartments at 
inflated rents--to unfinished buildings to what we call 
collective centers and maybe an unused school, to, in Lebanon 
alone, almost 300, what we call, informal tented settlements, 
and tent is an overstatement. It would be nice if they were 
tents. They were usually--sometimes they were tearing down 
billboards to build some sort of a shack, or they scrounged 
around for some materials. These are not run by UNHCR, but as 
we access them, one by one, we're trying to provide more 
assistance.
    Now, the problem is also particularly dangerous in Lebanon 
given the country's complex sectarian divisions. As I know the 
commission is well aware, the political and security situation 
in Lebanon is very precarious. We have reports of more 
spillover incidents along the border, with rockets fired from 
Syria continuing to strike Bekaa in the north, as well as 
prolonged unrest in Tripoli. We were supposed to go into 
Tripoli during this delegation, but the security--we had to 
drive around the mountain roads and bypass Tripoli and go to 
other areas of the north.
    We did go to the Bekaa as well. This situation, of course, 
is exacerbated by Hezbollah's recent engagement inside Syria 
that we're all aware of. During this visit, for example, in 
Lebanon, we learned that the funerals of Hezbollah fighters who 
have been killed in Lebanon were being used as occasions to 
fire shots over the tented settlements where Syrian refugees 
were living. Obviously, that's very much of concern.
    Now, in Jordan, most media attention has focused on Zaatari 
refugee camp in northern Jordan, which currently houses about 
120,000. Zaatari is a city actually--I mean, it's a camp. But 
as a camp, it constitutes the fifth-largest city in Jordan and 
it basically sprung out of the desert in July of last year. 
That camp is only 12 kilometers from the border so the refugees 
and the workers there routinely hear artillery fire at night. 
The location is harsh and some of the conditions are quite 
difficult.
    Yet, ironically, sometimes even though UNHCR likes to say 
that we're moving around from camps--for very good reasons, 
because camps aren't good locations to live and for children to 
be born and raised. But at least, in this camp and in other 
camps, we're able to provide assistance that's at least in 
walking distance for the refugees. However, as mentioned, 
three-quarters of Syrian refugees live in urban areas, in 
cities or villages. And they share many of the concerns with 
the urban refugees in Lebanon.
    These include high rents, inadequate cash assistance, 
problems accessing health care, lack of job opportunities, 
problems keeping kids in school and a whole host of protection 
issues including gender-based violence. These problems often 
force families to turn to what we refer to as negative coping 
strategies, which includes such things as child labor, early 
marriage, forced marriage and other forms of exploitation. 
We're very concerned about trafficking and all sorts of things 
in these circumstances.
    Now, another key finding from the trip, as you've already 
mentioned, is the ongoing need to assure open borders. UNHCR 
continues to work with governments in the region to convince 
them to keep providing access to territory to all Syrians 
fleeing as well as other nationals fleeing the conflict. We're 
very grateful for the commitment that they've already offered. 
By taking in thousands of new refugees every day, we have to 
remember that these countries which are on the front lines of 
the crisis are saving lives and supporting the families and 
communities.
    And very important, they're also helping Syrians prepare 
for what we hope will be an eventual return to their homeland. 
And at this point at least, every Syrian I met in Lebanon and 
Jordan said that they want to--they want to go home. But this 
ability to keep borders open and offer services is, of course, 
linked to international support to governments and host 
communities. If that support isn't available, acceptance 
towards the refugees may soon diminish, which would threaten to 
further stabilize what's already a fragile region.
    I heard about this over and over. I was told the host 
communities were initially welcoming to the refugees. Many 
landlords, for example, were deferring rent payments, or 
reducing rents. Neighbors were providing food. Communities were 
chipping in. It's clear, however, that the tide has turned and 
that tensions in host communities are growing.
    And this is leading to the threat of violence and 
instability. One government official I met with said the 
refugee crisis is bringing out the worst in society. He said 
what people think is morally acceptable behavior is skewed. And 
another official said, when you don't have enough yourself, 
you're not as willing to share as you used to be. Two very 
quick stories about refugees that I met, and then I'll 
conclude.
    In Amman, I met with an urban refugee family in an 
apartment--a very substandard apartment. Husband, wife, six 
kids, a daughter-in-law and a newborn grandchild. The son was 
still in Syria. They were from Daraa--Daraa region in Syria. 
The husband had participated in protests in Daraa and had been 
detained twice and tortured. He told us very directly he had a 
nervous breakdown because of this. The Syrians are very 
forthcoming with mental health issues, which is unlike a number 
of refugee populations I've met with before. He said he was 
receiving treatment. What forced him to leave was that he was 
asked for a third time to come in by military intelligence, and 
at this point, he was--he was afraid--he didn't want to go 
through the torture again and maybe lose his life, so he fled 
to Jordan.
    In addition to the concerns over rent and other assistance, 
their family is very worried because the newborn grandchild 
doesn't have birth registration. They're concerned about his 
ability to move as well as to access services like education. 
When we were leaving--and this is what struck me--we were 
walking down the steps, and the women said to our translator, 
boy, they're very lucky--meaning myself and our delegation. I 
thought they meant, largely, we're lucky because we're not 
coming from a war-torn country or we come from the United 
States or what. All they meant, when I asked about it, is that 
we were lucky that we were leaving the apartment, because they 
never do. They happen to live in a neighborhood that doesn't 
have as many Syrians, and they were afraid that they were 
becoming--there were increasing hostilities in that 
neighborhood to their presence.
    The second story, very quickly, is at a tented settlement 
in the Beqaa Valley of Lebanon. We met a little boy who had 
visible scars on his face from when a house explosion--he was 
in a house that exploded in Syria, and the burns were quite 
difficult to look at. We asked about assistance--the UNHCR 
staff with us said they would certainly follow up with them, 
but I wondered--you know, we just happened to be there. They 
hadn't seen aid workers for a while, because again, they're so 
scattered. How long would it be before he would be able to get 
some assistance? Next to him was a little girl who we were told 
was so emotionally distressed that she couldn't move her 
hands--that was just the way her symptoms were manifesting it.
    This visit really highlighted the need for adequate shelter 
as well as adequate assistance. So in conclusion--and let me 
just note that the--as we've discussed here, the conflict in 
Syria has put an unbearable strain on the population of Syria 
and its neighbors. The host countries have been very generous, 
but the overwhelming message that I received is that the 
welcome is now being strained as the conflict continues and 
refugees keep arriving. If our goal really is, as it is, to 
encourage these host countries to keep their borders open and 
continue allowing refugees to access basic services, then we 
have to do more to assist these governments and their local 
populations as well.
    Of course, we have to be very smart in how the resources 
are used, but the reality is that significant additional 
resources will probably be needed this year and beyond. New 
donors, including the private sector, have to be tapped, and as 
was mentioned earlier, including by Dr. Gabaudan, the 
development agencies have to be more engaged as well and work 
hand-to-hand with the humanitarian groups. The experiences of 
the refugees in neighboring countries may very well determine 
what a future Syria looks like, and the welfare of the host 
countries will determine the future stability and prosperity of 
the entire region. Thank you very much.
    Mr. Cardin. Thank you very much. Ms. Bittar.

  YASSAR BITTAR, GOVERNMENT RELATIONS AND ADVOCACY ASSOCIATE, 
                COALITION FOR A DEMOCRATIC SYRIA

    Ms. Bittar. Chairman Cardin and members of the commission, 
thank you for inviting me to testify on behalf of the Coalition 
for a Democratic Syria's work on Syrian refugees and internally 
displaced persons. I'd also like to thank you for actually 
traveling to the region and meeting with Syrian people on the 
ground.
    What began in March 2011 as a peaceful revolution in Syria 
with hundreds of thousands taking to the streets calling for 
freedom and democracy in the face of bullets and tanks has 
evolved into what president of Oxfam, American Ray Offenheiser, 
describes as a humanitarian catastrophe of ``Darfur-level 
insanity if not worse,''.
    As mentioned earlier, the U.N. made yet another aid appeal 
of $5 billion, its largest ever, maintaining that nearly half 
of the country's population will need aid. My comments today 
will focus on the coalition's work for the 1.6 million Syrian 
refugees and 4.25 million IDPs, many of whom have been 
displaced multiple times.
    I will then relay my observations from my recent trips into 
Syria, during which I took a closer look into the depth and 
complexity of the humanitarian crisis on the ground. CDS 
represents the Syrian-American community advocacy in support of 
the Syrian revolution. Our generous constituency throughout the 
country has been the driving force in our work for Syrian 
refugees and IDPs.
    According to data compiled by the American Relief Coalition 
for Syria, the Syrian-American community contributed $45 
million in humanitarian aid in 2012; this number is projected 
to double in 2013. The networks of these organizations are able 
to reach areas under extremely difficult circumstances, at 
times when access by the UN is very limited or altogether 
lacking.
    The international community's efforts in addressing the 
humanitarian crisis in Syria have somewhat improved in recent 
months, through the introduction of cross-line and cross- 
border aid deliveries by international NGOs, albeit on a scale 
that does not measure up to the massive needs.
    I saw small examples firsthand in the IDP camps inside 
Syria. My first trip, I saw very little presence of UN agency 
work; rather, the tents were donated by non-profit 
organizations willing to cross the border. While on the border, 
two tents caught fire as families used candles to keep warm, 
killing 7 children; these children survived the landing of a 
mortar shell in their kitchen only to be killed by their 
supposed source of refuge. During my second trip, two months 
later, several UNHCR tents were set up throughout these camps 
as the number of IDPs at the border approximately doubled to 
reach 60,000 people.
    Unfortunately, other needs such as food and sanitation 
remain in desperate condition. Refugees are forced to purchase 
their own food from local villages as their daily allocation of 
one loaf of bread, a tub of butter and jam, and one water 
bottle is often not sufficient.
    My experience as I traveled further into Syria was even 
more heartbreaking. As I traveled two hours into the country, I 
saw a physically beautiful Syria as a backdrop to the reality 
that the Assad regime has forced upon the people. We drove by 
homes that have been brought to the ground, places of worship 
that have been destroyed and buildings that had been leveled. I 
saw families living in remnants of ancient buildings and 
structures that once housed livestocks.
    After arriving at the city of Kafrenbal, I made my way to 
the statistics bureau of the local civilian council, a body 
formed by activists to meet the needs of the population in the 
absence of government services. As I was visiting the school 
that housed displaced children, an attack helicopter flew over 
our heads, and the children reassured me, saying, ``If we are 
meant to die, it is God's will. Don't be scared.'' According to 
the head of the humanitarian bureau of the local council, the 
aid that we delivered into the city had been the first delivery 
in at least one month; he delivered food baskets to women who 
accepted them with tears streaming down their faces. That 
night, we faced six hours of non-stop regime shelling; the 
following day, we escaped to Turkey.
    On the Turkish side of the border, we stayed in the border 
town of Rehanlye, whose population has doubled since the 
beginning of the crisis to reach 80,000 people. According to 
USAID, Turkey is home to approximately 380,000 registered 
Syrian refugees; of them, 100,000 Syrians reside in non-camp 
settings. The total amount of aid, as we discussed, spent in 
Turkey has reached $1.5 billion with the Turkish government 
going above and beyond by providing over $600 million.
    Although I was not given access to the Turkish refugee 
camps, I visited several Syrian families living amongst the 
urban population. I saw very difficult living conditions for 
families paying up to 700 Turkish pounds in rent; a family of 
six was living in a shed without running water or electricity. 
Another family of seven was living on the rooftop of a building 
with a makeshift roof for coverage.
    The number of refugees and IDPs is at a scale in which, 
according to assessments from the ground, there is little room 
for error on behalf of the international community. These 
numbers will only increase as the situation on is deteriorating 
by the day. Just last week, in the city of Qusayr, thousands of 
civilians were forced to flee to neighboring villages as Assad 
forces, backed by Iranian and Hezbollah militias, placed a 
vicious siege on the city of 25,000 people.
    Although positive steps in aid delivery have been made, a 
disconnect remains in ensuring proper and efficient aid 
delivery on behalf of the international community. We believe 
it is important to partner with the Assistance Coordination 
Unit of the internationally-recognized Syrian Coalition, the 
provincial councils in the liberated areas, as well as the 
Syrian NGOs that have proven to deliver to disaster stricken 
areas. More importantly, the U.S. has to demonstrate strong 
resolve and serious commitment to helping solve the crisis in 
Syria, the root cause of the humanitarian disaster. Absence of 
U.S.-led international action has permitted the crisis to 
fester and reach its current tragic proportions, and continued 
inaction will only worsen it.
    Without addressing the root cause of the problem--the 
illegitimate Assad regime--the staggering numbers of IDPs and 
relentless exodus of refugees will continue to overwhelm the 
humanitarian response and destabilize OSCE member Turkey, OSCE 
partner Jordan, and all of Syria's neighbors.
    Thank you very much for your time.
    Mr. Cardin. Well, we thank all three of you.
    I particularly appreciate, Ms. Bittar, your observations of 
what's happening inside of Syria. I think that's very important 
for us. We know that it depends greatly as to what part of 
Syria you're in and who controls the different areas, but one 
of our challenges is how do we get aid inside of Syria? We know 
there are NGOs working, but to oversight, the route of that aid 
is not always certain in that we're not clear whether the 
resources are getting to responsible people or not. So we 
appreciate your observations and we're going to continue to do 
what we can to develop the networks, but it is very, very 
challenging.
    I have one question and then I'll yield to my colleagues. 
What I said originally, we have two priorities: to try to deal 
with the people who have been victimized, those that have been 
displaced and are refugees, to get them aid. The other is to 
bring some semblance of order to Syria. And the strategy is to 
try to get change in the regime as quickly as possible, and to 
do that in a way that provides for governance in Syria that 
respects the rights of all of its citizens so that people can 
live in peace.
    Now, in order to accomplish that, the opposition people 
have been urging for more definitive U.S. assistance and 
international assistance. If the amount of international 
activity increases inside of Syria, the discussions about 
lethal force, what impact could that have on the Syrian 
population dealing with the issues that we're currently dealing 
with? Do you have a view--or the nation has already been 
shocked to such a point that anything more won't make much of a 
difference, could there be another round of large increases of 
displaced individuals within Syria?
    Mr. Gabaudan. Well, reading my cup of tea, Senator, as a 
matter of course I would say if you introduce more weapons in 
an area which is already in conflict, which may lead to faster 
resolution of the conflict, hopefully and perhaps, but during 
that time there would be more civilian casualties.
    I think the nature of the conflict has already proven that 
civilians are bearing an immense cost in the conflict and I 
cannot see how adding more weapons to that conflict would make 
civilians safer in the short term. In the longer term that 
would be more of a military expertise to perhaps address that 
because I cannot really vouch on that.
    Mr. Cardin. I guess my point about this is--and I'm for 
resolving the situation in Syria as promptly as we can and 
helping the opposition. My concern is we already--we don't have 
the infrastructure in place today to deal with the current 
displaced people. Putting additional pressure on it is going to 
make at least the short-term circumstances even worse, and 
making it even more urgent that we get the resources we need to 
try to develop a network to deal with those who are being 
displaced.
    Ms. Mason. Well, as UNHCR being a humanitarian 
organization, I can't directly address the military situation 
inside Syria, or what would be or wouldn't be the impact of 
different courses of action the U.S. could take. I only wanted 
to mention that on the trip everyone we met with--government 
officials, U.N., even the refugees themselves--were very tied 
in to what's going on back at home, were saying that they still 
expect greater displacement regardless of what happens. We kept 
hearing it over and over: The worst is yet to come. For 
example, the battle for Aleppo hadn't happened yet.
    Regardless of what happens with Assad, they were concerned 
that there could be future violence that would then--you know, 
maybe more sectarian violence that would then lead people to 
leave. So just to say that regardless of the course of action 
the assumption was more displacement is going to happen.
    And that's why as the U.N. we're calling for increased 
funding this year and then probably beyond, because as was also 
mentioned, regardless of what happens, if Syrians are to return 
someday, there's going to have to be great investment in 
infrastructure and rebuilding that country, because with 
agricultural land destroyed, homes destroyed, entire villages, 
there's very little right now for people to go back to.
    Mr. Cardin. Let me just--you can answer that--Ms. Bittar, I 
just want to ask you, what percentage of Syria today do you 
believe we have effective ways of getting help to those who are 
in need?
    Ms. Bittar. I mean, if we look at the liberated regions, I 
believe the number that we have as far as liberated areas in 
Syria, I believe the percentage is about 60 percent. But what 
we have through the networks on the ground, through these 
Syrian NGOs, they're able to reach, like I mentioned, areas 
that normally the U.N. agencies can't reach. For example, there 
was a neighborhood in the city of Homs called Alwad (ph), which 
has been--which was left by the regime until they were 
tightening the siege on the city. And there's 600,000 IDPs in 
that neighborhood itself.
    So they tightened the siege on the city. And in response, 
American Relief Coalition for Syria was able to raise about 
half a million dollars of aid and find access through their 
networks on the ground into these areas that have been under 
siege. So if the area isn't liberated, which a lot of Syria is 
despite the change on the ground militarily, as we're seeing, 
there are the networks on the ground through these Syria NGOs, 
as I mentioned earlier.
    But then also, in response to your earlier question, in 
regards to--the goal of course is to end the conflict in Syria 
so that all the Syrians can return back to their country and 
those that are internally displaced can return back to their 
homes. Arming, in our belief, would help of course bring that 
conflict to an end in that as we look at the situation we see 
Iran and Hezbollah on the ground in Syria. They're making gains 
on the ground.
    We have seen them take over, regain the city of Qudsaya, 
for example. They are amassed in the suburbs of Aleppo. So 
we're seeing these troops and the Assad regime kind of take the 
path towards regaining formerly liberated areas. So what 
happens in these formally liberated areas is that these 
civilians are forced out, leading to the increase of internally 
displaced people.
    So in order to make sure that this liberated area is not 
regained by these Iranian and Hezbollah troops on the ground, 
we must equal the playing field on the ground by providing arms 
to the Free Syrian Army on the ground, by providing a no-fly 
zone so that the Assad regime can land their air force and the 
SCUD missiles are not killing innocent civilians on a daily 
basis.
    So providing arms, although it seems one would predict that 
would lead to, like my colleague mentioned, a short-term 
displacement, it helps solve the crisis, helps solve the 
conflict, which brings people back home and levels the playing 
field on the ground, so that we don't lose, so that the Free 
Syrian Army does not lose any ground--any of the liberated 
regions. So, yes.
    Mr. Cardin. Well, thank you for that answer. We are 
certainly anxious to get this issue--get Syria resolved. And 
the committee I serve on, Senate Foreign Relations Committee, 
has taken--is taking action to try to increase U.S. leadership 
in that regard.
    I would just maybe take issue on one of your statements. In 
the liberated areas, it's my understanding they're all not 
equal as far as the ability to get aid distributed. We have 
more confidence in some areas of the liberated communities than 
we do others, that international assistance can get to the 
people that really need it. Is that your--I see you're shaking 
your head. Isn't there this inconsistency in the liberated 
areas?
    Ms. Bittar. From what I saw--again, I traveled to Aleppo 
and I traveled to Idlib. From what I saw, there was a lack kind 
of across the board, but the system is in place. I think the 
structure is in place so that we can ensure proper aid delivery 
through the Assistance Coordination Unit.
    The Assistance Coordination Unit is kind of like a 
capacity, a place where all the assessments of the situation on 
the ground, all of the networks on the ground kind of come, and 
where we can go to the structure and say: We have this aid that 
needs to go to a certain location in the liberated areas; can 
you help us facilitate it? And they can connect the aid or the 
NGOs to the right people on the ground so that the aid goes to, 
like, more difficult-to-reach areas. But as far as I saw on the 
ground, I wasn't able to see a vast difference between 
different cities that I visited.
    Mr. Cardin. Right. And the two areas you went to are--I 
know the two areas, but we've looked at the map and we've tried 
to figure out where we think we have networks that work, and 
it's a challenge. It's a challenge. Dr. Burgess.
    Mr. Burgess. Thank you, Chairman Cardin.
    Ms. Mason, let me ask you a question. And this may seem so 
basic as to--be something that's not worth asking at a hearing 
like this, but the people in the camps, let's say specifically 
in the camps in Jordan, what do they do? What do they do all 
day? What's a day in the life like for someone in the camps?
    Ms. Mason. Part of their day is getting the services that 
they need, lining up for food distribution, lining up for other 
distributions. We do have--there are--with partners there are 
schools for the children, not sufficient enough for all of them 
right now. And some families, for various reasons, are not 
sending their kids to the schools, but we do have schools. We 
do have what's called ``child-friendly spaces,'' where they can 
go even when they're not learning academic subjects to provide 
some structure, some normalcy for them.
    More and more we're trying, with limited resources, to have 
more camp-type meetings, structures where women can gather, men 
can gather, make their needs known. But the rest of what they 
do all day, as Assistant Secretary Richard mentioned, there is 
just all sorts of things going on in the camp--some good, some 
bad, some unfortunate. Kids are gathering, throwing stones. 
We've seen vandalism. We've seen a lot of manifestations of 
just the frustration, the mental illnesses, the lack of any 
structure or any hope at this point. So some of the activities 
in the camp, we're trying to put an end to some of those and 
put more structure in place.
    Mr. Burgess. Those who have been displaced, who have left 
another home within their home country, how do they keep tabs 
on their property or their former homes or possessions?
    Ms. Mason. Yeah, that's a very good question. A lot of the 
refugees I talked to were still in contact, because many of 
them had families back home. A lot of them still had sons or 
other male relatives who were in detention, who were in prison, 
but others have family members. They mentioned mothers, 
sisters. A lot of them had older family members who just 
weren't able to make the difficult journey. A lot of them said: 
My mother is still in Syria. So they're in communication with 
them.
    In addition, some of them are returning when possible, 
sometimes to check on their land. There are daily buses that go 
from Zaatari camp in Jordan, organized by the government. In 
some cases families are accompanying individual family members 
that want to go back and return. In some cases they're all 
going to check on property or to try to bring other family 
members back with them. So they do have ways.
    Mr. Burgess. So there's an expectation that at some point, 
when peace and order is restored, that they would be able to go 
to their original place of residence.
    Ms. Mason. There's definitely a hope, a very strong hope. 
Everyone I talked to said, I want to go home. And of course 
that's what refugees say in the early part of a crisis anyway, 
but we heard this consistently, that they want to go home. 
Whether they'll go--if their home no longer exists they 
wouldn't go back to that same residence, but I think most of 
them came from communities where they want to go back and 
rebuild those communities.
    Mr. Burgess. Those that had some means, do they have any 
mechanism of a bank to check or a debit card, or any way of 
accessing their cash that they may have had?
    Ms. Mason. Back in Syria, probably not. But we and our 
partners in not all the locations--at many locations--are doing 
cash assistance, particularly for the most vulnerable. We're 
not able to get cash to everybody but for the most vulnerable 
we are providing cash assistance. And we're hoping to increase 
it.
    And we're moving to a system of debit cards. I mean, it's a 
very effective form of giving assistance. There's almost zero 
overhead rate when you're giving cash. If you do it right with 
debit cards and such, there's very little chance of fraud. So 
they do have some access to that. In terms of their own means, 
their own cash that they may have brought, I think they're just 
using what they have and then it's dwindling.
    Mr. Burgess. Tell me this: You mentioned a figure of 60 to 
70 deliveries a week. Was that in one specific camp?
    Ms. Mason. That was in Zaatari, which is the only real 
refugee camp per se in Jordan. There are some very smaller what 
we call camps. They were originally built as transit centers 
and now they're limited.
    Mr. Burgess. So these are Syrian nationals who are housed 
in Jordan?
    Ms. Mason. In the Zaatari refugee camp in Jordan, 60 to 70 
babies born per week, yes.
    Mr. Burgess. And to what country are those children 
assigned citizenship?
    Ms. Mason. That's a very good question. My organization 
also has a mandate for stateless individuals. It's not a well-
known topic, so usually when I talk about statelessness 
people's eyes tend to glaze over. But you just put your hand on 
what it means.
    If they can't register the births in Jordan--and sometimes 
they can and sometimes they can't--then at this point they 
could be viewed as stateless because they don't have 
documentation back in Syria yet. But at least for the ones in 
the camps, the birth itself is registered.
    We're working with authorities to make sure that when this 
child needs documentation, that they'll have it. Then of course 
we'll have to see what exists back in Syria to record that 
documentation as well. In the Arab world there's something 
you're probably familiar with called the family booklet, and 
it's just important to make sure that these births are still 
registered and that they're listed on the family booklet.
    Mr. Burgess. Doctor, let me just ask you this: What about 
the medical care in these camps? Who is providing that? Would 
this be the host country of these doctors who have been 
displaced who are in the camps? How does this work?
    Mr. Gabaudan. In the camps--sorry, Congressman. In the 
camps mostly international nongovernmental organizations, but 
most of the refugees are not in camps. So in the--sorry, in 
Turkey it's the Turkish Red Crescent which is completely in 
charge of the camps. In Jordan you have an international 
organization. So is the case in Iraq. For all the refugees who 
are in urban centers----
    Mr. Burgess. In Iraq?
    Mr. Gabaudan. In Northern Iraq, yes, you have about 150,000 
refugees in the Kurdish regional government.
    Mr. Burgess. Man, their medical infrastructure in Northern 
Iraq was really spotty the last time I was there, which wasn't 
all that long ago. So they're providing that within Iraq?
    Mr. Gabaudan. They are providing for the urban to give 
access to their own facilities, but these are simple, as you 
know, and this is where they need assistance.
    For the urban refugees in general, there is possibility to 
access services, but the capacity of these services has been 
over-stretched. And this is where this should be addressed I 
think more through the development lens.
    In Lebanon it's very different because in Lebanon all 
health care is private. It's available but it's extremely 
expensive. What you have is international NGOs picking the tab 
for the refugees so that they can pay the bill in private 
medical practice. It's a very expensive venture, particularly 
that among the older population you have a lot of heavy need 
for tertiary attention.
    Mr. Burgess. Sure. Well, you mentioned professionals who 
were displaced, so if you have a professional family--a doctor, 
dentist, accountant--are they able to work when they get to the 
new location, whether it be in a camp or just resettling in a 
new country?
    Mr. Gabaudan. I don't have an exact answer. I would guess 
that in the camps they probably can work with some of the 
international nongovernmental organizations. In the countries 
they cannot work because they're not licensed.
    Mr. Burgess. I see. Thank you. I'll yield back.
    Mr. Cardin. I'm going to turn the gavel over to Mr. 
Hastings, Congressman Hastings. When you're complete you can 
adjourn the committee. I apologize. I have a 4:00 commitment. 
And I want to thank, again, our witnesses. And thank you all 
for your participation.
    Mr. Hastings. Thank you very much, Senator. And thank you 
again for holding what I perceive as a very, very important 
hearing. And I hope that we have a follow-up to it, that I'll 
talk to you about. I'm not going to keep you all. I just am 
overwhelmed with sadness that these matters persist in the 
world, not just in that particular area. The Organization for 
Security and Cooperation in Europe now has, I believe 57 
countries, 57. Very recently, or in the last two months--I 
don't know how to describe them, but let's just call them 
disturbances--occurred in Sweden dealing with the fact that 
they had absorbed--and I'm proud of the fact that they did--a 
significant number of Iraq refugees. Some of the issues, as 
described at least in the media--and I have no first-hand 
information, but some of the issues dealt with the fact that--
the usual inadequate housing, inadequate jobs, inadequate 
education, and medical attention in a country as forthcoming as 
that.
    I guess my question is, Ms. Mason, do you get any 
information from other countries in the OSCE region 
specifically, leaving out Turkey and Jordan as a partner, 
saying, you know--I heard you talk about Germany accepting 
5,000, but did this particular series of events there and the 
events in France, not related to this in one sense of the word, 
did these kinds of uprisings cause other countries to say, I'm 
not so sure that we want to accept refugees?
    Ms. Mason. Thank you very much for that question because, 
as you're aware, resettlement is one component of UNHCR's work. 
It's one of what we call the three durable solutions. It's very 
small solution.
    Out of the 10 (million) or 11 million refugees around the 
world that we care for, there are only about 100,000 
resettlement spaces available in any given year. So we're 
talking less than 1 percent of the world's refugees that can 
never be resettled. But we do view it as a critical form of 
protection. So we take very seriously the continued willingness 
and openness of countries to receive refugees.
    I'm not familiar with the specific incident in Sweden, 
though I will say Sweden is one of our key partners in 
resettlement. Unlike the United States, which has a very 
lengthy process for admission, as the assistant secretary 
mentioned, Sweden is often able to take emergency cases very 
quickly, medical cases and others. So they have been a key 
partner of ours.
    Other European countries don't participate too much in the 
resettlement system, because by virtue of geography they get a 
lot of spontaneous asylum seekers and they meet one of their 
international obligations to refugees by accepting asylum 
seekers who come in without any help by the U.N. through the 
international system.
    Even though our job in resettlement is only to identify 
cases that are vulnerable and refer them to countries--and then 
it's up to the countries, through their own mechanisms, to take 
refugees in--we of course are very aware of and concerned by 
local integration prospects, security issues, anything that 
would help or hinder resettlement from happening. So we do take 
this very seriously.
    I haven't as yet heard countries in the OSCE region or 
elsewhere, our resettlement partners stepping up and saying, 
you know, this has happened or that's happened; we don't want 
to take in refugees. What we do tend to hear from, like, in the 
U.S. is maybe one community, one group, one individual who 
maybe has a perspective where they're not as familiar with the 
resettlement system and all the benefits that others might be.
    And that's where I would go back to what Dr. Burgess said 
earlier. We do agree that it's very important to keep local 
officials and communities very aware of the needs of refugees 
who are coming and why they're coming. Each state, including 
Texas, has a state refugee coordinator and a number of 
nongovernmental organizations that work in refugee 
resettlement. And they are very often keeping these local 
agencies, local officials informed of what's happening. And if 
they're not, I think they would welcome knowing who they could 
meet with in your district and how they can provide more 
information.
    So to get back to the question, I haven't heard anything 
about this yet. We do at times--we do hear, and that's when we 
go back and try to remind them of the conditions that people 
are fleeing and try to make sure that resettlement occurs as 
far in advance and appropriately as possible so we can 
alleviate some of those concerns.
    Mr. Hastings. Ms. Bittar and Dr. Gabaudan spoke about the 
nonprofit groups in Syria specifically that are not in the 
loop. What is your interaction, if any, with Ms. Bittar and her 
group?
    And the same goes--since Dr. Gabaudan identified it first, 
for my ears at least--what does UNHCR do, and should you not be 
making attempts to have these particular groups involved 
since--for lack of a better way of putting it, when I was a 
child in Altamonte Springs I would have been able to deliver 
more than most outsiders because I had access to the people and 
I was one of them.
    Ms. Mason. Absolutely. If you're referring specifically 
about inside Syria in terms of assistance----
    Mr. Hastings. Yeah, inside Syria.
    Ms. Mason. As mentioned, we're only one of a number of U.N. 
and other agencies that are working inside Syria. Because of 
legal restrictions the U.N. is not able to do cross-border 
assistance right now without a change, but we are doing inside 
Syria what we call cross-lines assistance--assistance going 
through Damascus up to the north and other places where there 
are concentrations of displaced persons that need help.
    It's certainly not enough. I wouldn't pretend to say it's 
enough. But we are doing what we can. And for the actual 
distribution we are working with the Assistance Coordination 
Unit, and we're working with some NGOs. I'm not familiar with 
exact names of who we're dealing with, but we are working with 
them. We want to do more. We want to do a lot more. Part of it 
is capacity. Part of it is of course the security inside Syria.
    Mr. Hastings. Two more quick questions. One to you, Dr. 
Gabaudan.
    You mention in your statement the zero-point distribution 
system that Turkey utilizes. I'm asking for information. Can 
you tell me a little bit more about how that works and whether 
or not it would help, then, a national community, or could it?
    Mr. Gabaudan. I think it does. Turkey does not want to do 
cross-border operation itself because that would be a violation 
of the sovereignty of Syrians. They have been quite clear on 
that. However, they do tolerate the passage of goods from 
Turkey to Syria by agencies who are in Syria. But the zero-
point is really on the border, a place where Turkish trucks 
empties its goods into a Syrian truck and then the NGO can take 
these.
    Mr. Hastings. Yeah. Right. OK.
    Ms. Bittar, you ended your testimony--and I'll quote you, 
and you correct me if I'm wrong--you said the United States has 
to demonstrate strong resolve and serious commitment to helping 
solve the conflict in Syria, the root cause--you said other 
things before this--the root cause of the humanitarian 
disaster.
    In your opinion, what specifically would you have the 
United States--and I don't mean you specifically but the 
organization and others that you work with, and you--what would 
you have the United States and the international community do 
to try to bring an end to the violence in Syria?
    Ms. Bittar. Definitely. I would say that it's a three-
pronged approach.
    First we would start with--the United States would start 
with exerting more political pressure in that we would cut off 
all--any kind of support in that--even, like, with the lack of 
statements, for example, against Assad--against the Assad 
regime.
    Second, we would also empower the Syrian Coalition, which 
is now in place, as well as the interim government, so that 
they can meet the needs of the people on the ground. And then 
there's also--we must be pressuring the Lebanese government to 
do what they can to ensure that Hezbollah troops do not travel 
into Syria to fight with the Assad regime.
    The second prong we would say is to exert further military 
pressure in that the U.S. should be supplying arms, defensive 
arms, strategic arms, to the Supreme Military Council, the 
structure in place under General Commander Salim Idris, that 
works with the majority of the Free Syrian Army battalions on 
the ground, the good guys on the ground, those that align with 
the vision for a free Syria, that we share here in the U.S., so 
that we can help unify them, so that we can kind of elbow out 
the influence of the extremist groups on the ground so that 
they do not gain anymore popularity and do not continue to win 
the hearts and minds of the people.
    And then, finally, we should support the civilian 
governance that is taking place. So we have the political 
track. We have the military track. And the political and the 
military track are aimed at changing Assad's calculations so 
that he sees that the international community will not let him 
continue what he's doing, because at this moment in time he's 
emboldened by Iran's support. He's emboldened by Hezbollah's 
support. So we must do something to force him to the table, 
force him to negotiate, or force a political settlement for 
Syria.
    And at the same time, we should be supporting the civilian 
governance on the ground that I mentioned earlier. There are 
these civilian structures, democratically elected structures on 
the ground who need to be empowered so that the civilians are 
meeting the needs of the people rather than the military arm or 
the extremist elements inside Syria, so as to strengthen their 
legitimacy on the ground and also kind of help in the 
transition post-Assad.
    So in regards to your question, sir, I would believe it's 
the three-pronged approach of political pressure, military 
pressure--which we haven't seen enough of by the international 
community--to force Assad to the table, and then finally, 
continue the support to the civilians governance so that the 
transition post-Assad is not as chaotic and does not spillover 
into the region.
    Mr. Hastings. Well, one thing I wish that the media would 
pay more attention to is the long-standing direct involvement 
that the Russian government and the previous Soviet Union--and 
I often wonder, if we had made a deal with them to assure that 
they kept their warm-water port, whether or not some of this 
would be a little different at this time.
    I'm not sure that I agree that military, even in the short 
term, is going to help. I'm so confused by it all. I'll give 
you an example. When I met with Bashir Assad, I already knew 
that Iran was supplying military materiel to Hezbollah. I 
specifically asked him, and he allowed--because I'd been in the 
region an awful lot but I had never had an opportunity to take 
that two-hour drive from Damascus to Lebanon through the Beqaa 
Valley. He granted it and assured that we would be safe and all 
of that, and it was OK. And we met with Mr. Hariri on the other 
side when we got to Lebanon.
    But I asked him specifically whether or not Iran used Syria 
as a transition point for military materiel to be distributed 
specially to Hezbollah, and of course he gave me a long story 
as to why that is not true and the international community 
has--later that same day I learned that as we were speaking he 
moved apparatus.
    Now, he knew that I served on the Intelligence Committee 
and I would know that. All I'm saying is I'm not sure how you 
bring an abject liar to truth. I hope at some point--not from 
the standpoint of what Ms. Mason and Dr. Gabaudan do--and lord 
knows they don't have enough resources to do what they need to 
do anywhere, but I hope at some point the international 
community insists that people like Assad and others be brought 
to justice in a meaningful way. I don't know that it will ever 
stop this greed, this power-mongering, this continuing pattern 
of people not being able to resolve their differences. I don't 
see good things happening in Syria either way. That's just me.
    I thank you all. You know so much.
    Mr. Burgess. One follow-up. Ms. Bittar, since you've 
broached the question, I'm going to ask it. OK, the last 10, 12 
years you've seen the displacement of Mullah Omar in 
Afghanistan and the result there. You've seen the displacement 
of Saddam Hussein in Iraq and the result there, the 
displacement of Hosni Mubarak and the result there, the 
displacement of Gaddafi in Libya and the result there. Are any 
of those models to which Syria aspires right now?
    Ms. Bittar. What I can tell you about the Syrian people is 
that--from my experience with them--I'm Syrian-American and I 
traveled back to Syria every summer since I was born. I was 
born here, though, in the United States. And my interactions 
with them on the ground, and as well as the narrative of the 
Syrian revolution, in that since day one what they were calling 
for is a democracy. What they were calling for is the right to 
elect their own government.
    These people, we've lived together for hundreds of years--
Muslims, Christians, Alawites, Shiites. We've all lived 
together for hundreds of years in Syria. Of course, throughout 
history you'll find disputes and things like that, but it's an 
ethnically diverse, religiously diverse country that's been 
able to thrive together.
    And so its history kind of speaks to the cohesion and the 
bonds that exist between the people, as well as coupling that 
with the narrative of the revolution. Since day one the people 
are calling for freedom and democracy. They're calling for--you 
know, they weren't calling for--there were no sectarian 
slogans, nothing like that--calling for a Syria that represents 
all Syrian people.
    And I believe, furthermore, the Syrian--the majority of the 
Muslim population is a very moderate Islam, again speaking to 
my experience with them on the ground. But the further that 
this situation goes and the lack of international community 
support has led to frustration of course with the international 
community and kind of pushed towards some extreme ideologies. 
But the core Syrian people, their beliefs and their values 
align with what we all believe, what we see here, in that they 
want a Syria that represents all Syrians, regardless of 
ethnicity, religion.
    And I do believe--and I think when you talk to Syrians on 
the ground, that is what their dream and their wish for a 
future Syria is. But again, the longer that this takes, the 
longer that this problem goes on, there are more questions in 
the air. So the key is helping bring a solution now so that 
these--so that these groups and these ideals and these beliefs 
can really show and we can start taking the steps towards a 
post-Assad Syria, a Syria that all Syrians are asking for.
    Mr. Burgess. I find myself strangely aligned with Mr. 
Hastings. And perhaps that's because we've spent so much time 
together the past two days. But perhaps that's a good note on 
which to end. And I thank you for your tolerance and I'll yield 
back.
    Mr. Hastings. Thank you very much.
    And I certainly thank all of you. There's so much more. I 
hope we get a chance, some of us, to visit personally so that 
we can perhaps have a meeting about solutions and not just 
discuss the problems. You've enlightened us a great deal. And 
again I thank Chairman Cardin and our incredible staff for 
pulling this hearing together. And I thank you all, ladies and 
gentlemen, for being with us today.
    I regret very much--and when I chaired the commission I 
tried to open a process where people who have to sit and listen 
would have an opportunity to ask questions or make statements 
themselves. Staff didn't like it. I still think it worked. It's 
boring as hell to come up here and not get a chance to say what 
you want to say. Somehow or another there's something 
incredibly wrong with the way we go about doing this, and I 
think that we could relax it a little bit and learn a great 
deal more from people sitting in this audience that have a 
whole lot of information that would be useful to this process. 
But these incredible witnesses have done a magnificent job, and 
I thank you all for being here. The hearing is closed.
                            A P P E N D I X

=======================================================================

                          Prepared Statements

                               __________

Prepared Statement of Hon. Michael Burgess, Commissioner, Commission on 
                   Security and Cooperation in Europe

    Thank you Mr. Chairman for the recognition and for calling this 
hearing today.
    In January of 2011, when Syrian protestors took to the streets 
demanding democracy and the ouster of dictator Bashar al-Assad, they 
were one of last countries to participate in what has been known as the 
Arab Spring. This revolutionary wave of demonstrations was a historic 
one as oppressive and totalitarian governments were toppled giving way 
to liberty, freedom and the rule of law.
    However, a full two and a half years later, the civil war in Syria 
drags on and on with no end in sight. In fact, just this morning, 
United Nations' human rights office said that almost 93,000 people have 
been confirmed killed in the Syrian conflict, with half as much thought 
to be civilians.
    Equally as alarming is that the United Nations High Commissioner 
for Refugees claims that as many as 5 million Syrians have been 
displaced within the country and 1.6 million had fled to neighboring 
countries to escape the carnage. This is beyond a humanitarian 
disaster. It should not be surprising that OSCE member states such as 
Jordan and Turkey have graciously opened their borders and taken in 
hundreds of thousands of Syrian refugees. To be sure, as states that 
have sworn an oath to a peaceful approach to conflict management and 
post-conflict rehabilitation, these countries have exemplified the 
practice of OSCE members.
    However, accepting these refugees has not come without consequence. 
An average of 8,000 Syrians are crossing the border into surrounding 
states each day, putting an increasing political and financial strain 
on the countries that have accepted them. Indeed, nations making up the 
Syria Regional Response Plan have requested almost $3 billion, 
including Lebanon and Jordan that have requested a combined $1.5 
billion.
    The world has responded. Nations such as the United Kingdom and 
Germany have given hundreds of millions of dollars. The United States 
has also had no such difficulty acting, giving more than $500 million 
in humanitarian aid.
    This war must end. And the United States, together with its 
international partners in the OSCE, will continue to pledge support 
towards the Syrian refugees who stood up the face of a tyrant and 
demanded their freedom.
    Again, Mr. Chairman, thank you for holding this hearing. I also 
thank the witnesses for appearing here and am interested in their views 
as to what actions the United States needs to take going forward to end 
the refugee crises.
    Prepared Statement of Anne C. Richard, Assistant Secretary for 
      Population, Refugees and Migration, U.S. Department of State

                               __________
Turkey
    Current Situation: Turkey currently is hosting more than 376,000 
registered or soon to be registered refugees spread across eight 
provinces. In addition, tens of thousands of Syrians have sought refuge 
in Turkey without registering their presence with authorities, 
according to estimates provided by the Government of Turkey. About 
150,000 refugees have arrived since the start of this year as violence 
in Syria has intensified. Roughly 200,000 refugees live in 17 camps 
near the border with Syria, while the rest are dispersed in cities and 
villages throughout the country. With no end in sight to the Syria 
conflict, Turkish officials and international relief organizations are 
bracing for up to a million Syrian refugees (UNHCR estimates) in Turkey 
by the end of 2013.
    While Turkey is in the process of building or planning an 
additional seven camps, it is clear that camp capacity will be 
insufficient to absorb the increasing numbers of refugees in need of 
assistance. Initial urban registration efforts point to increasing 
numbers and needs. The majority of those coming to Turkey are fleeing 
violence in northern Syria, which includes the major cities of Aleppo, 
Raqqah, Idlib, and Hasakah. Given the high numbers of Internally 
Displaced Persons (IDPs) in northern Syria and the continuing violence, 
significant additional refugee inflows to Turkey are likely.
    Progress Made: It is worth recalling Chairman Cardin's words of 
praise in a Senate Foreign Relations Committee hearing last March about 
the generosity shown by the Turkish people and their government to the 
hundreds of thousands of Syrians who have fled to Turkey seeking safety 
for their families. The Turkish Government has expended more than $700 
million, and up to $1 billion according to some estimates, to address 
the enormous needs of the refugee population. Communities across Turkey 
have opened their doors to Syrian families seeking shelter, food, and 
security. Turkey's response is virtually unprecedented in refugee 
crises.
    The Government of Turkey maintains a temporary protection regime 
and an open border policy for refugees fleeing the violence in Syria 
and has invited and receives the guidance of UNHCR on refugee 
protection issues. The Turkish government has worked hard to keep 
Turkey's borders open to the many thousands of vulnerable individuals 
and families who have sought refuge in Turkey, and it has done so 
despite considerable financial, security, and political risks. Turkish 
authorities pride themselves on the ability to care for and provide 
protection to Syrian refugees, whom they refer to as ``guests.'' In 
this capacity they have been gracious hosts, providing services in 
camps that have always met, and in many cases exceeded, international 
standards of humanitarian assistance. Turkey also makes available 
temporary residency to Syrian passport holders who have been in the 
country for more than six months, and has begun registration of 
undocumented urban refugees. This registration provides access to free 
medical care. Turkish authorities in refugee-hosting provinces have 
also reached out to NGOs to help respond to refugee needs.
    According to UN reporting, authorities and relief organizations are 
combining their efforts to construct and furnish new schools for 
communities heavily impacted by the influx of students from refugee 
families. The Government of Turkey announced in January that free 
medical services would be provided for registered refugees living 
outside of camps, and this announcement was followed by a recent 
decision to provide free medication to Syrians as well. We applaud the 
Turkish Government's recent decision to allow accredited Syrian doctors 
to practice in clinics and hospitals with large numbers of refugee 
patients. Recognizing the trauma suffered by the victims of Syria's 
conflict, we are encouraged that the Turkish government has placed 
social workers in most refugee camps and plans to work with UNHCR, 
UNICEF and UNFPA to expand programs to address the trauma-related needs 
of the refugee population.
    Challenges: The challenges facing Turkey are far too great for any 
one country, even one as committed to the issue and as financially 
capable as Turkey, to fully provide for the magnitude of needs. 
Projections that the refugee population will likely grow to a million 
by year's end mean that Turkish officials, local communities, and the 
international humanitarian community are hard-pressed to keep pace with 
expanding humanitarian needs. Many of our operational partners are 
struggling with limited resources, while trying to plan for ``worst-
case'' contingencies such as a sudden massive surge of new refugees far 
beyond what has been projected.
    Plans calling for refugee camps to reach a combined capacity of 
300,000 necessitate considerable resources for construction of new 
camps and expansion of services to them. Surveys of new refugees 
indicate that many had been displaced internally in Syria for months 
and their personal resources were often exhausted by the time they 
reached refuge in Turkey. In other words, increasingly impoverished 
refugees are arriving in Turkish border areas. Refugees not 
accommodated in camps often face considerable challenges in finding and 
maintaining adequate shelter and providing for other basic needs. 
Anecdotal accounts of child labor by particularly desperate refugees 
are increasing; begging by women and children leaves them vulnerable to 
exploitation and abuse. Exacerbating the situation in host communities 
is the fact that some Turkish households have lost more than half their 
annual income as a result of lost commerce with Syria.
    Despite offers by some Turkish communities to enroll refugee 
students in local schools and the generous support of some governorates 
and municipalities to establish schools with Syrian teachers, many 
Syrian children reportedly remain unable to attend because they face 
language barriers, because schools have reached their maximum capacity, 
or because they lack the necessary documentation to register. Parents 
are often reluctant to send children to schools where the curriculum is 
taught in another language or where attendance may not lead to credit 
necessary for transferring back into the Syrian school system when 
refugees return. UNICEF reports that fewer than 23 percent of Syrian 
children in Turkey are enrolled in school.
    The security situation is adding to the challenges already faced by 
Turkey in caring for such a large population. The recent bombings that 
took place in Reyhanli left over 50 dead and were the deadliest in 
Turkey in over a decade. Reyhanli, a city on the border with Syria, has 
sheltered thousands of Syrian refugees. The attack, which has been 
linked to Government of Syria agents, prompted backlash by the Turkish 
community against Syrian refugees and against the Turkish government's 
deeply pro-opposition stance. Many Syrian refugees, fearing for their 
safety, fled from Reyhanli in the wake of the attack. Some even 
returned to Syria While not a daily occurrence, regular skirmishes 
involving fire between Turkish security forces and Syrians have 
occurred along the border. There have also been several incidents 
involving clashes between Syrian refugees and Turkish authorities in 
camps although order and calm have always been quickly restored. The 
Syrian regime's bombings of IDP camps and other rebel strongholds in 
Syria have occurred in close proximity to the Turkish border. 
Meanwhile, a wave of protests against the Prime Minister is unfolding 
across the country, adding a new layer of uncertainty and concern among 
the public.
    Strategies and Plans: The U.S. government is providing over $43 
million in humanitarian assistance for Syrian refugees in Turkey, 
including nearly $37 million from the Bureau of Population, Refugees, 
and Migration (PRM). Through funding to UNHCR, UNICEF, UNFPA, IOM, 
IFRC, WFP, and several NGOs, the U.S. Government has strongly supported 
the Turkish relief effort. In coming weeks we will look at making an 
additional contribution in response to the growing needs of refugees 
and host communities.
    The updated UN appeal for Turkey has grown to a cumulative total of 
$372.3 million. This combined appeal reflects the coordinated 
intentions of the major international organizations in Turkey and was 
closely coordinated with the Government of Turkey. It contains several 
key elements designed to address some of the most pressing needs of 
Syrians in Turkey. UNHCR, for example, will provide additional shelter 
support (tents and containers), cooking utensils, blankets and communal 
water and sanitation facilities for the camps as well as emergency 
shelter assistance and blankets for the urban populations. Multiple 
organizations plan to continue reaching out to vulnerable urban 
refugees to help the Turkish government identify them and better 
understand their needs. WFP is prepared to expand funding of its 
electronic food card program to include refugees living in Turkish 
communities if the Government of Turkey requests food assistance 
outside of camps. UN programs will also provide support to survivors of 
sexual and gender-based violence and will enhance child protection. 
UNHCR and UNFPA plan to work with the Turkish Government to examine 
issues surrounding sexual abuse.
    UN support to health facilities, and UN provision of mobile health 
clinics in urban areas and container clinics in camps will bolster the 
health sector. WHO will support the coordination and training of Syrian 
doctors in Turkey as well as provide emergency medication in the camp 
and urban settings. We are also supporting NGOs to build capacity in 
Syrian clinics. UNICEF and other partners plan to assist educational 
systems by refurbishing more schools, providing more prefabricated 
classrooms and teacher trainings, and supporting recruitment of more 
educators. Meanwhile, our NGO programming already helps to create child 
friendly spaces, provide psychological support to children, and address 
urgent psychosocial needs among vulnerable refugees.
    Turkey has proven to be a strong partner as we work to meet the 
needs of an ever increasing population of Syrian refugees. Like any 
country facing such a pronounced influx of people, Turkey needs support 
in order to continue addressing these needs, prepare for contingencies, 
and prevent the conflict from adversely affecting its own security. We 
are prepared to continue doing whatever we can to help Turkey face 
these serious challenges.
Jordan
    Current Situation: 473,000 Syrian refugees have fled to Jordan, an 
increase of nearly 200 percent since January 2013. The massive influx 
during the first half of the year has far outpaced projections, 
indicating that Jordan may be coping with as many as one million Syrian 
refugees by the end of this year. Currently about three-quarters of the 
refugees live in Jordanian towns and villages, while one-quarter live 
in camps.
    With northern Jordanian communities increasingly overwhelmed by the 
refugee influx and even greater numbers anticipated in coming months, 
Jordanian authorities are placing a higher priority on steering new 
arrivals to designated refugee camps that are expected to shelter as 
many as 300,000 refugees by year's end. Two camps currently host Syrian 
refugees: Za'atri camp, which is nearing capacity with 110,000 
occupants; and the Emirati Jordanian Camp that opened in April with an 
initial capacity of 5,000 but a potential long-term capacity of 30,000 
or more. The Government of Jordan and UNHCR are constructing a third 
camp, Azraq, with an eventual capacity of 130,000 occupants. In 
addition to Syrian nationals, about 6,700 Palestinian refugees who 
lived for decades in Syria have fled to Jordan, and are expected to 
number about 10,000 by December.
    Progress Made: The Government and people of Jordan have strived to 
cope with the unprecedented refugee influx with hospitality and 
tolerance. The government has significantly expanded the number of 
registration centers in urban areas, including in Amman, to help 
refugees register their presence and more easily access assistance 
programs. The Government of Jordan pays for water and sanitation 
services for refugees living in host communities and permits refugee 
families to utilize public health services side-by-side with Jordanian 
citizens. Vaccinations and maternity care are provided free of charge. 
More than 200,000 refugees receive food aid with UN support, and 40,000 
receive regular, direct cash assistance payments.
    The government is working with UNHCR to reorganize Za'atri camp in 
order to improve security and living standards, including by 
transitioning residents from tents to prefabricated shelters. In 
reaction to concerns about a measles outbreak, authorities and relief 
workers have vaccinated 90 percent of Za'atri's occupants. The 
humanitarian operation that provides services to Za'atri is impressive 
in its scale: some 3.4 million liters of water are trucked to the camp 
daily; some 220,000 blankets and more than 300,000 mattresses and 
sleeping mats have been distributed in the camp since January.
    The Jordanian government's willingness to be flexible and 
innovative in response to the humanitarian emergency is impressive. In 
January, the Government of Jordan established a Syrian Refugee Camp 
Department to help officials focus on camp security and assistance 
needs. Officials are in the process of finalizing national guidelines 
for more consistent handling of child protection cases and gender-based 
violence. During the past half-year, authorities have given UNHCR 
greater access to border areas and have allowed a 50 percent increase 
in the number of international humanitarian organizations authorized to 
work in the country.
    Challenges: There are troubling signs that the Jordanians' 
impressive hospitality is wearing thin under the relentless pressure of 
ever-rising refugee numbers. UNHCR and UNRWA have expressed concern 
over reports that border guards have denied entry to Syrians and 
Palestinians seeking refuge. The Jordanian Parliament earlier this year 
called for tighter restrictions on the entry of refugees into the 
country. A local newspaper survey reported that nearly three of every 
four Jordanians favored closing the border. Jordanian policies restrict 
the ability of refugees to find legal employment, increasing their 
vulnerability. Water shortages looming in the hot season and scheduled 
increases in electricity tariffs may produce added social tensions. 
Support to northern Jordan is a priority, as large numbers of Syrian 
refugees have settled into some of Jordan's poorest rural communities, 
triggering higher prices for rent and food for refugees and residents 
alike.
    Health workers report that health clinics and hospitals are 
overwhelmed by patients, particularly in northern Jordan. A 
considerable number of patients arrive suffering from life-threatening 
wounds related to the conflict and requiring emergency attention and 
prolonged recovery and rehabilitation. Shelter experts report that they 
are finding more Syrians living in crowded, disrepaired, substandard 
housing because it is the only shelter refugees can afford due to the 
higher rents caused by the tight housing market.
    Due in part to its sheer size, conditions in Za'atri camp have been 
difficult to improve despite efforts by the Government and UNHCR. The 
camp is seriously overcrowded and suffers from rampant vandalism, 
security incidents, and civil unrest on an almost daily basis. Plans to 
install better lighting in the camp to improve security at night have 
been delayed because of concerns that elements in the camp would 
vandalize light fixtures. Large numbers of refugees have left Za'atri 
camp to strike out on their own in search of better conditions 
elsewhere in Jordan; relief workers warn that better monitoring is 
required to ensure that these highly vulnerable individuals are not 
becoming victimized by exploitation and trafficking networks.
    In short, there is a pervasive sense in Jordan that all parts of 
the humanitarian community are doing more and have committed more 
resources, yet are falling behind the pace of events and the burgeoning 
humanitarian needs.
    Strategies and Plans: The U.S. government is providing more than 
$101 million to support humanitarian operations for refugees from Syria 
in Jordan since the crisis began. We will look closely at increasing 
our contribution in coming weeks, in response to the expanding needs 
and the revised UN appeal released last week. The UN's revised appeal 
calls for a cumulative total of $976 million to address protection and 
assistance needs in Jordan alone. The UN appeal seeks to ramp up 
assistance not only to the country's current and future refugees, but 
also to a half-million Jordanian residents in hard-hit host 
communities. We agree that is the right approach.
    Our number one priority in Jordan is to maintain open borders so 
that traumatized victims of the Syrian conflict can reach safety. To 
encourage keeping the borders open for refugees, the international 
community must continue to work closely with the Government of Jordan 
to support the massive relief operation underway, help pay for the 
expensive but absolutely necessary expansion of refugee camps to 
accommodate ever-more refugee arrivals, and direct more services to 
refugees and the local Jordanian communities struggling to absorb them. 
In the second half of 2013, PRM will place a priority on supporting 
stronger programs in Jordan to register Syrian refugees so that they 
can access basic services, construction of new and expanded refugee 
camps, services that benefit Jordanian communities impacted by the 
refugee influx, health care for life-saving activities, and protection 
programs that target the needs of women and children. We also will 
encourage our operational partners in Jordan to put more contingency 
plans in place given the risk of further deterioration inside Syria.
    We are working closely with our interagency colleagues to implement 
a whole-of-government approach to boost support to host governments and 
communities in the region, including more bilateral economic and 
development aid to help maintain and expand public services for all 
populations. USAID/Jordan is already providing assistance to Jordanian 
host communities. In addition to a $200 million cash transfer to the 
Government of Jordan to help alleviate budget pressures caused by the 
influx of Syrian refugees, USAID has also identified additional sources 
of funding and adapted other bilateral projects to support essential 
services in water, education, and health, and added support for 
vulnerable populations in response to the impacts of the Syrian crisis. 
Our focus on areas heavily affected by the Syrian refugee influx 
includes programs for health and education, as well as capacity-
building for affected municipalities. We have also urged the United 
Nations to allow local people to benefit from assistance programs in 
order to ease local tensions.
    We are encouraged that the updated UN appeal emphasizes the need 
for improved refugee shelters and will strengthen refugee registration 
programs to more effectively identify survivors of sexual and gender-
based violence and other traumas. UN and NGO agencies will seek to 
bolster Jordan's education system by adding prefabricated classrooms, 
teacher training, and financial support so that refugee students can 
receive the less visible help many of them need, such as psycho-social 
programs and skills training in vocational education activities.
    We will continue to pay special attention to the need for dramatic 
improvements to security in Za'atri camp. We are working with the 
Government of Jordan on ideas to improve security in the camp, which we 
hope to be able to discuss in the near future.
Lebanon
    Current Situation: Lebanon is facing a significant crisis as the 
Syrian conflict encroaches further into Lebanese affairs. Attacks from 
Syria targeting Lebanese towns and villages in the Bekaa and north have 
become a daily reality. Forces of the Syrian regime regularly violate 
Lebanese territory. Tripoli's Sunni and Alawite communities are 
engaging in escalating street battles, and Beirut and Sidon are on edge 
as sectarian and political tensions flare. Hizballah's increasing 
involvement in Syria, including sending its fighters to assault Syrians 
on behalf of the Asad regime, is threatening Lebanese stability, 
exacerbating sectarian tensions, and is contrary to the Government of 
Lebanon's stated policy of disassociation from the Syrian conflict.
    Lebanon hosts more than 513,000 Syrian refugees, more than half of 
whom have arrived in the past five months. Thousands of Lebanese 
migrant workers who have worked on Syrian farms for years have lost 
their livelihoods and been forced to return home. More than 57,000 
Palestinian refugees from Syria have fled to Lebanon. As the 
overwhelming needs of these vulnerable populations continue to grow, 
Lebanon is at risk of being torn apart at its sectarian seams.
    Review of Humanitarian Efforts: Despite these challenges, Lebanon 
has consistently maintained an open border to all those fleeing the 
violence and is working closely with UN agencies and NGO partners to 
provide assistance to those in need. The Ministry of Social Affairs has 
activated its large network of Social Development Centers to 
disseminate information on available services to the refugee community. 
Lebanon has enrolled 30,000 Syrian refugee children in nearly 1,000 
public schools. And refugees are receiving medical care at public 
hospitals and clinics around the country.
    Registration is a key protection strategy to identify the most 
vulnerable and to ensure access to appropriate services. We commend 
UNHCR's herculean effort to scale up its registration capacity, which 
has cut the waiting time for new arrivals to less than 30 days. The 
World Food Program is delivering food assistance to some 220,000 
persons, and UNHCR and implementing partners have distributed thousands 
of blankets, mattresses, and hygiene kits to those in need. The World 
Health Organization (WHO) has supported the Lebanese Ministry of Health 
to conduct a measles vaccination campaign for 460,000 Syrian and 
Lebanese children.
    Concerns/Challenges: The Government of Lebanon's caretaker status 
has prevented any major policy decisions in terms of the refugee 
response. Due to lack of funding, the government's High Relief 
Commission was forced to suspend funding of secondary health care for 
Syrian refugees in July 2012. The Government has worked closely with 
the UN and NGO partners to identify needs and to coordinate the overall 
humanitarian response, but the overwhelming volume of needs will 
require a strategic, targeted approach to focus on the most vulnerable 
cases.
    Shelter is a particular challenge in Lebanon, as the Government of 
Lebanon has expressly avoided establishing camps for Syrian refugees. 
Nearly all of the 513,000 Syrian refugees in Lebanon reside in host 
communities, renting apartments and spare rooms or sharing space with a 
Lebanese family. The massive inflows to host communities in recent 
months have resulted in a dwindling number of buildings available for 
rehabilitation. Meanwhile, the potential for collective shelters is 
limited. Partners have agreed on the need to establish transit sites to 
accommodate new arrivals, but await the government's final approval for 
this approach given political sensitivities to refugee camps in 
Lebanese society. A disturbing new trend is the development of over 200 
informal tented settlements throughout the Bekaa valley and northern 
Lebanon. These improvised shelters are often sub-standard, with limited 
or no sanitation facilities and located in areas prone to flooding and 
at risk of fire. UNHCR and other partners have prioritized the 
provision of assistance to these vulnerable communities to avoid the 
outbreak of communicable diseases and to improve shelter quality before 
next winter.
    More than 57,000 Palestinian refugees from Syria have fled fighting 
in the Damascus area and have moved into overcrowded existing 
Palestinian camps with poor living conditions. Tensions already run 
high in these camps, which were overcrowded, volatile, and in disrepair 
before the arrival of Palestinian refugees from Syria that increased 
the overall Palestinian population in country by approximately 20 
percent. U.S. support to UNRWA in Lebanon provides needed assistance to 
this population, including cash assistance, relief supplies, education, 
and medical care.
    Priorities/Strategies/Plans: The U.S. Government is providing more 
than $88 million to support humanitarian operations in Lebanon for 
refugees fleeing the violence in Syria. The UN has requested $1.2 
billion in the revised appeal to support humanitarian assistance 
programs in Lebanon. Needs have consistently outstripped response 
capacity, and the projected toll of hosting up to one million Syrian 
refugees by the end of 2013 point to the need for broader economic and 
development support from the international community. The Government of 
Lebanon has identified an additional $450 million needed to support 
national institutions, including the Ministries of Health, Education, 
and Social Affairs.
    Prepositioning of humanitarian supplies will be crucial to enabling 
a flexible, rapid response that is prepared for a massive influx of 
Syrian refugees from the Damascus area, should violence significantly 
increase. The UN has prioritized $17.5 million in the revised appeal to 
prepare shelter stocks for up to 100,000 people, as well as $21.8 
million for basic essentials such as mattresses, hygiene kits, 
clothing, heaters, and other items that a sudden influx of refugees 
will require. The United States commends this focus on preparedness, 
and will support these efforts through ongoing financial contributions 
to humanitarian partners and identifying ways to target bilateral 
assistance to address Lebanon's most urgent needs as it continues to 
respond to this crisis.
    USAID, through its current programming, has intensified efforts to 
support Lebanese communities most heavily affected by the Syrian crisis 
through activities that address three key challenges: local service 
delivery; conflict mitigation; and income generation/livelihoods. From 
education to water to agriculture and local governance, many of these 
activities improve service delivery, expand economic and educational 
opportunities, and support youth to encourage their participation in 
resolving community concerns.
Iraq
    Current Situation: Some 157,000 Syrian refugees have fled to Iraq, 
an increase of at least 89,000 since the start of the year. During the 
first half of the year, 600-800 Syrians arrived daily. The UN projects 
that the number of refugees may double to 350,000 by the end of 2013. 
About 65 percent of registered refugees are in mostly urban settings, 
while 35 percent live in three camps.
    The vast majority of refugees fled into Iraq's Kurdish Region, 
where many have ethnic and familial ties. Set up by the Kurdistan 
Regional Government, Domiz camp accommodates approximately 50,000 
persons. Another 3,200 refugees reside in two camps established by the 
Government of Iraq in Anbar province at al-Qa'im. An additional camp is 
under construction in Erbil province and will eventually accommodate 
12,000 refugees. Many Syrian refugees have returned to Syria in recent 
weeks to check on property, visit family, or to settle back into 
localities where security has improved.
    Progress Made: National and local authorities in the Kurdish Region 
responded generously to the refugee influx and moved quickly to 
establish services with support from the international community. The 
Kurdish community launched a fundraising drive to provide food and 
other emergency supplies to the Syrian Kurdish refugees flooding into 
the Kurdish Region. While more remains to be done, the Kurdistan 
Regional Government worked hard to facilitate relief efforts by UNHCR 
and other UN humanitarian agencies working in Domiz refugee camp. The 
Council of Ministers of the central government recently approved a $5.2 
million transfer to the Kurdistan Regional Government to support 
services such as water, electricity and road construction.
    Some 40,000 refugees received supplies to insulate their shelters 
against winter weather. WFP has operated a school feeding program for 
refugee children during the past year and established a U.S. 
Government-funded food voucher program covering approximately 48,000 
refugees in Domiz camp. WFP also does monthly food distributions in the 
al-Qa'im camps. The refugee camps offer free primary health services, 
including for reproductive and mental health. UNHCR recently launched a 
new working group to coordinate responses for Syrian refugees in urban 
areas of the Independent Kurdish Region. UNHCR is beginning to 
distribute cash assistance of $200-$800 (dependent on family size) to 
extremely vulnerable refugees in Erbil, Dohuk, and Sulimaniyah.
    Challenges: Border closures are a primary concern. The Government 
of Iraq closed the al-Qa'im border crossing into Anbar province in 
October 2012--except for urgent medical cases--citing security concerns 
about potential infiltration by extremists. Entreaties from the U.S. 
Government and others to balance legitimate security concerns with the 
humanitarian imperative to provide refuge to those fleeing violence, 
including offers to assist with border screening procedures, have not 
succeeded in convincing Iraqi authorities. At the end of March, Rabiya 
border crossing was also closed. On May 19, the Kurdistan Regional 
Government closed Fishkabour border, the main crossing point into 
northern Iraq, reportedly due to political tensions between Kurdish 
groups.
    Serious overcrowding in Domiz camp is another emerging challenge. 
While authorities and humanitarian agencies managed to meet the most 
important needs of the first waves of refugees, continued inflows have 
raised tensions among camp residents and have produced sanitation 
problems that expose camp residents to disease. Increased rates of 
hepatitis and diarrheal disease among children have been reported. 
Nearly 1,000 families in Domiz live in makeshift shelters because the 
camp has no more land formally allocated to erect tents within the 
camp's current boundaries. Some 3,500 families are cohabitating in 
tents with other families for that reason. Additional land has been 
allocated for new sections, but construction has been slow. In 
anticipation of continued influxes, UN officials worked with local 
Kurdish officials to identify suitable land in Sulimaniyah for 
additional camps, but construction is delayed until after the harvest. 
Education concerns in the camp also need attention. Despite the opening 
of a third school in April, less than 40 percent of school-age children 
in Domiz are enrolled.
    The combination of substandard conditions in Domiz camp and 
restrictions imposed on refugees' freedom of movement in areas beyond 
the Independent Kurdish Region are believed to be among several factors 
that have prompted more than 11,000 Syrian refugees to return to Syria 
despite the dangers there. While services inside the al-Qa'im camps in 
Anbar generally meet basic needs, refugees are required to stay inside 
camps, which limits their ability to engage in economic activities to 
support themselves and prevents them from visiting relatives in the 
area. Refugees are increasingly opting to return to Syria out of 
frustration with the lack of freedom of movement. Relief agencies 
report anecdotally that camp schools are experiencing high dropout 
rates because of child labor and early marriages propelled by economic 
and social stresses facing refugee households.
    More information is needed about the living conditions of the more 
than 100,000 registered refugees living in Iraqi host communities, as 
well as those who have not been registered. The Kurdistan Regional 
Government stopped issuing residency permits to refugees in May 2013, 
making it harder for refugees living in the Kurdish Region to access 
local public services such as health centers and schools.
    Strategies and Plans: The U.S. Government will continue to 
encourage Iraqi authorities to maintain open borders between Iraq and 
Syria. It is critical that persons seeking to flee the horrific 
violence in Syria are able to do so. We will also continue to press the 
Kurdistan Regional Government to approve additional land in suitable 
locations to keep pace with the refugee influx that is almost certain 
to continue in the second half of this year and to allow our 
humanitarian partners to assist refugees regardless of where they 
reside. The aggregate UN appeal for the refugee emergency in Iraq is 
$310.8 million. The U.S. Government is providing nearly $19 million to 
refugee relief operations in Iraq thus far, in addition to PRM's 
general regional contributions, and will announce additional support in 
the near future. Separately, we have also offered our assistance to the 
Government of Iraq to improve its border security, including to address 
a possible spillover of chemical weapons.
    We are pleased that the newly updated UN appeal includes a stronger 
emphasis on efforts to support the heavily impacted local communities 
that shelter Syrian refugees. The UN strategy would provide support not 
only to Syrian refugees but also to some 50,000 Iraqi citizens living 
in areas with large refugee concentrations. The appeal proposes to 
provide more medicines, equipment, and training to local Iraqi health 
clinics; rehabilitation of local schools that Syrian refugees used as 
temporary shelters; and cash assistance to refugee families so that 
they can purchase essential supplies directly from local merchants. We 
strongly encourage authorities in Iraq to work closely with 
humanitarian agencies to reach the most vulnerable people--both Syrian 
and Iraqi--living in those host communities.
Egypt
    Current Situation: The humanitarian impact of the conflict in Syria 
has spilled into North Africa. UNHCR had registered 59,885 Syrians with 
19,382 still awaiting registration as of June 9. These numbers 
represent a near doubling of the Syrian refugee population in the past 
two months. UNHCR predicts that up to 500,000 Syrians (registered and 
non-registered) could be present in Egypt by the end of 2013.
    Syrians are relocating to Egypt rather than to adjacent countries 
for a range of reasons: pre-existing familial or community connections, 
the relatively high costs of living in neighboring countries, 
perceptions of fewer security risks and better employment opportunities 
in Egypt, and an opportunity to live with fewer restrictions. Until 
June 2012, Syrians arriving in Egypt were primarily middle- to upper-
middle class families with sufficient resources to reside in affluent 
areas of the capital or other cities. Although Cairo, Alexandria and 
Damietta are the primary locations hosting Syrians, a growing number 
have relocated to poorer neighborhoods of Greater Cairo because it is 
more affordable for families with limited resources. It is anticipated 
that refugee arrivals will continue to increase as the school year in 
Syria comes to an end.
    Progress Made: The Government of Egypt, civil society, and 
charitable organizations have responded generously to the needs of 
Syrian refugees. The Egyptian government grants Syrians a visa-free 
entry followed by a renewable three-month residency, as well as access 
to public schools and hospitals. After this period, Syrians are 
expected to regularize their stay by extending their residency permits 
every six months. Syrians with children enrolled in school can obtain 
one-year residency permits. Syrians registered with UNHCR are able to 
obtain six-month renewable residency permits on their UNHCR refugee 
card.
    UNHCR has a well-established refugee program in Egypt that already 
offered protection and assistance to some 48,000 asylum-seekers and 
refugees from other countries in the region. UNHCR and other 
international humanitarian agencies are working to extend their 
coverage into new areas in order to reach the growing Syrian population 
dispersed throughout Egypt.
    Challenges: Despite the warm welcome Egyptians have provided to 
Syrian refugees, it will be become more difficult to sustain the level 
of assistance as numbers mount. Since the 2011 revolution in Egypt, the 
uncertain political and economic situation creates challenges for 
Egyptian as well refugees. Although Syrian refugees are keen to work, 
Egyptian unemployment rates are high and work permits are difficult to 
obtain for refugees and other foreigners. Housing is expensive for 
refugees with limited resources. As refugee families' resources 
continue to diminish, many will struggle to sustain their current 
living arrangements.
    Although Egyptian authorities have granted Syrians access to public 
health care, the existing system is already overburdened and additional 
support is required in areas of primary, maternal, and child health 
care as well as for life-saving health interventions. Education is also 
a concern. While the Government of Egypt has provided access to public 
schools at the primary and secondary levels, enrollment and integration 
of Syrian children is complicated. Public schools have limited openings 
for additional students, and private schools are too expensive for many 
refugee households. Sexual harassment is a concern for school-age girls 
who report to UNHCR that they are harassed on the way to school and 
inside school buildings.
    As the flow of new Syrian refugees continues, the main challenge 
for UNHCR and its operational partners will be the provision of regular 
services and outreach to Syrians who have dispersed to remote areas of 
Egypt outside the scope of existing humanitarian operations.
    Strategies and Plans: The aggregate UN appeal for the refugee 
emergency in Egypt is $66.7 million. The U.S. Government is providing 
$2.1 million to support refugee programs in Egypt, including $1.7 
million from PRM. We will look closely at augmenting that amount in the 
near future. A strong and sustained humanitarian response will be 
essential as the number of Syrian arrivals continues to grow and those 
already in Egypt deplete their savings and become less able to support 
their families. It will be important to sustain steps already taken to 
expedite refugee registration and conduct regular assessments of their 
needs so that UNHCR and its operational partners can continue to design 
flexible programs responsive to their needs. The Government of Egypt, 
UNHCR, other UN agencies, IOM, and NGOs will need to coordinate closely 
to ensure that humanitarian programs are as comprehensive and inclusive 
as possible.
      Prepared Statement of Michel Gabaudan, President, Refugees 
                             International

    Mr. Chairman and members of the Helsinki Commission of the United 
States Congress, thank you for the invitation to testify today on the 
situation of Syrian refugees and the impact on the countries hosting 
them. Refugees International (RI) appreciates the Commission's interest 
in what is arguably the most important humanitarian and political 
crisis of the day. We are pleased to have this opportunity to speak 
with you about the larger situation and ways to address it.
    Refugees International is a non-profit, non-governmental 
organization that advocates for lifesaving assistance and protection 
for displaced people and refugees in some of the most difficult parts 
of the world. Based here in Washington, we conduct 10 to 15 field 
missions a year to places like Colombia, DR Congo, Myanmar, and South 
Sudan, on behalf of the most vulnerable communities, particularly those 
displaced from their homes and needing lifesaving assistance. Notably, 
Refugees International does not accept government or United Nations 
funding, which allows our advocacy to be impartial and independent.
    Over the course of the past year-and-a-half, RI twice visited each 
refugee-hosting country bordering Syria, crossing into northern Syria 
during our most recent trip in March. On that same trip, we spent 
considerable time in northern Iraq, administered by the Kurdish 
Regional Government (KRG), and along the southern border of Turkey.
    Since the initial uprising in Syria in March 2011, the number of 
displaced Syrians has reached staggering proportions: 1.5 million are 
refugees in the region, almost 7 million inside Syria need humanitarian 
assistance, and more than 4 million of the latter are internally 
displaced. Two significant diplomatic interventions have not resulted 
in a peace plan, a cease-fire, or even sustained humanitarian access to 
areas where the fiercest fighting is taking place. To date, every 
effort to bring the Syrian government together with the opposition for 
constructive discussion has been fruitless. And while the world 
attempts to help resolve the crisis in Syria, Syrians themselves 
continue to face insecurity inside Syria, and countries receiving large 
numbers of Syrians fleeing the war are straining under the pressure. 
The prospect of spillover violence in these countries is emerging as a 
central security concern.
    Refugees International has been following the development of the 
Syrian crisis since its beginning, and was among the first non-
governmental organizations on the ground in Lebanon at a time when 
Syrians began to arrive in that country in large numbers and the UN was 
unable to access many communities hosting the refugees. Our earliest 
advocacy focused on pushing the UN Refugee Agency (UNHCR) to 
expeditiously expand its area of operations and to encourage the U.S. 
government and other donors to deepen their engagement with local 
government and community leaders to support refugees in need. The 
latter recommendation was included in the House Appropriations 
Subcommittee on State, Foreign Operations, and Related Programs report 
accompanying the Fiscal Year 2013 spending bill. In that report, the 
Committee expressed that it: ``understands that effective expansion of 
relief efforts in the region associated with the unrest in Syria will 
require increased partnerships with local, nongovernmental 
organizations and community-based organization. The Committee 
encourages the Department of State to further diversify these 
partnerships.''
    The number of refugees we saw flowing out of Syria at the time of 
that recommendation was modest. Unfortunately, the U.S. agencies 
responsible for building effective partnerships at the grassroots level 
did not use the time they had to build these relationships. Now with 
the pace of displacement increasing considerably, we regret to report 
that those agencies are only beginning to adapt their approach to 
partnership to effectively support refugees and host communities. Time 
has been lost, making it now more urgent that the State Department and 
USAID rapidly update their approach to responding to regional 
humanitarian crises to include different partners such as local 
government and community-based organizations. The United Nations, its 
partners, and local organizations in all the refugee receiving 
countries--Egypt, Iraq, Jordan, Lebanon, and Turkey--work diligently 
every day to meet the survival needs of the refugees and offer safe 
spaces, but the sheer numbers are overwhelming their capacity to 
respond adequately. Likewise, inside Syria, restrictions by the Syrian 
regime and the general insecurity prevent the UN, its partners, and 
local humanitarian actors from reaching most of the people in need.
    Understanding that a political solution to the crisis will be slow 
in arriving, RI continues to evaluate the humanitarian response region-
wide with the intent of ensuring those who can be reached by 
humanitarian assistance receive it in a timely and responsible fashion. 
While each country hosting Syrian refugees has challenges unique to its 
own social and political situation, there are some commonalities across 
the region. First and foremost, as is the case with many humanitarian 
responses that involve the international community, funding for the 
response has not kept up with demand. Last week the United Nations 
released its new requests for funds to help Syrians: $2.9 billion for 
refugees, and $1.5 billion for those inside. These are the largest 
humanitarian appeals in the UN's history--an indication of the scope of 
the crisis. To date, both appeals are less than 30% funded.
    In addition to the need for funds, each neighboring country must 
make ongoing decisions about whether to keep its borders open. These 
decisions are affected by the numbers of refugees arriving, their 
relationship with the host community, possible spillover of the 
conflict that drove them out, and the host government's ability to 
provide support, usually in conjunction with the UN system. In the past 
year and-a-half, RI visited Syrian refugees both inside and outside of 
camps across the region. We saw concerns as straightforward as 
shortages of shelter, and as complex as a lack of services for women 
who have survived sexual violence. The world has witnessed an 
incredibly generous response by Syria's neighbors regarding open 
borders, but all of these countries have repeatedly indicated that 
there is a limit to how much more they can provide without significant 
assistance from the rest of the world.
    While the situation for Syrian refugees in Jordan and Lebanon has 
remained quite visible in the media and in policy circles, Turkey and 
Iraq have captured less international attention. Jordan and Lebanon 
host the largest numbers of Syrians and the ongoing efforts to support 
those countries are well-deserved and absolutely necessary. Turkey has 
relaxed its initial inclination to keep the international community at 
arm's length and requested assistance, and Iraq is facing a very real 
crisis in providing for Syrian arrivals. U.S. and the broader 
international community's support for Syrian refugees fleeing into 
Iraqi Kurdistan has been complicated by the political tension between 
Baghdad and Erbil. With more than 95 percent of Syrian refugees in Iraq 
residing in the Kurdish region, and the Kurdish Regional Government 
(KRG) being the main funder for sustaining refugees even as oil 
payments have been cut by Baghdad, it is imperative that the U.S. and 
donor counties better coordinate support with the KRG.
    Both Turkey and Iraq present unique challenges to the current model 
of supporting refugees through the UN and its partner agencies. The 
added attention that the Helsinki Commission has been able to bring to 
the question of how best to respond to Syrian refugees in different 
political contexts is welcomed just one week after the UN released its 
largest humanitarian appeal in history.
Turkey
    During RI's most recent visit in March, officials of the Turkish 
government regularly concluded meetings with the same statement: Turkey 
needs help if it is going to maintain and expand its response to the 
Syrian refugees. Turkey is not officially listed as an international 
donor country providing financial assistance to the Syrian refugee 
response, but if all of the benefits and services that Turkey provides 
for Syrian were to be monetized, it would immediately rise to the top 
of list of worldwide donors. The Turkish government estimates that it 
has spent $1 billion on its response to Syrians. This includes 
administration and support to 17 government-run camps for Syrian 
refugees in Turkey--five of which are very high quality container camps 
and the others very good tent camps. There are also new camps and new 
expansions to existing camps underway in Turkey. On average, these 
camps each cost more than $2 million monthly to operate, or nearly half 
a billion dollars a year.
    In addition to the camps, which host some 200,000 Syrian refuges, 
Turkey also has initiated limited health services and very limited 
educational support for some non-camp or urban refugee populations. In 
the near-term the government, in collaboration with UNHCR, is expected 
to put into operation more than 10 mobile registration units that will 
allow greater numbers of non-camp refugees to register for health 
services. Notably, the government of Turkey has also been able to 
support the provision of aid into Syria through its zero-point 
distribution system. Zero-point distribution is the term used to refer 
to the process by which Turkish agencies transfer aid at the border to 
Syrians who then distribute the food and medical supplies to displaced 
people and others in need inside the northern areas of Syria. At the 
outset of the crisis, Turkey declined international support believing 
that it would be able to provide adequate assistance to people in need 
for a short period of time. However, as the conflict dragged on and the 
number of refugees grew rapidly, the level of assistance required also 
increased. For almost a year now, Turkey's government has requested 
additional financial assistance from the international community to 
share some of the burden of providing for a large refugee population.
    Such support will be crucial to Turkey's ability not only to 
maintain the established camps, but also to develop a comprehensive 
response to those Syrians not in the camps. While the quality of the 
government-run refugee camps is quite high, it stands in stark relief 
to the nearly complete lack of services for those who cannot be 
accommodated in those camps, and whom Turkey's government has only 
recently begun to recognize. The UNHCR is allowed only a very limited 
role in Turkey, and NGOs--both local and international--struggle to 
register with the government in order to have their programs officially 
sanctioned. As a result, the main service for non-camp Syrians in 
Turkey at the moment is registration of guest status. Registration with 
either a host government or the United Nations is an important 
component of refugee protection, but outside of the Turkish camps it is 
offered only in a few select urban areas with the largest Syrian 
populations, leaving significant numbers of Syrians without even this 
most basic form of protection.
    Refugees International strongly encourages the U.S. government to 
offer direct, bilateral financial support to Turkey equal to the amount 
necessary to operate the refugee camps for one month, or roughly $60 
million. While this sum is a modest contribution to the Turkish refugee 
response, it is a meaningful symbol of solidarity with the Syrian 
refugees and the Turkish communities that play host to the victims of 
this conflict. While Turkey may not be a ``usual'' recipient of U.S. 
economic aid, the unique situation it is in right now merits 
reconsideration of direct assistance. A month's worth of operating 
expenses for the camps would also allow Turkey to dedicate more of its 
own resources to services for Syrians outside of camps, could encourage 
Turkey to keep its borders open to those fleeing Syria, and would 
acknowledge to the rest of the world that Turkey is doing an excellent 
job in responding to the needs of the most vulnerable Syrian refugees. 
Supporting Turkey in its work is not simply an expression of good will; 
it is a very real way to offer aid to more Syrians seeking refuge. 
Besides those in Turkey, Syrians inside Syria will also benefit from 
Turkey being able to use more of its resources pushing aid across the 
border through zero-point distribution efforts, which it has been 
carrying out effectively for some time now. Given the absence of 
predictable access inside Syria by the UN and by other donor countries, 
we need to take advantage of any entry points into Syria for 
humanitarian assistance, even those that are unorthodox.
    To further address possibilities for getting aid into Syria, RI 
also examined the network of Syrian and Syrian-run groups that are 
operating from Turkey near the Syrian border. Some of these groups are 
formal NGOs registered in other countries, and some are simply an 
individual or collection of people with connections inside Syria and a 
lot of courage. Cross-border aid is happening from every neighboring 
country of Syria, and Turkey is no exception. Syrian refugees and 
expatriates enter Syria daily to deliver food and medical supplies to 
local civil committees for distribution to their communities. The same 
organizations also provide other types of aid in the service of Syrians 
and their future civil society: they bring NGO workers into Turkey to 
train them in capacity-building, humanitarian principles, and 
documentation; they escort groups of volunteers who do field surgery 
inside Syria; they extract the wounded who need urgent care and get 
them to the border; and they provide a constant stream of information 
back and forth about what is happening on the ground that journalists 
and authorities don't see. In speaking with these groups, it became 
apparent that as a whole they have extensive access to Syria's interior 
that the multilateral agencies and INGOs simply do not have right now.
    The INGOs will always be a main responder in humanitarian crises--
they have the experience, the know-how, and the resources to provide an 
effective response. They generally work with local partners in-country 
and provide them with support and experience. But Bashar al-Assad's 
government places restrictions on movement and provision of aid in many 
areas of Syria. As a result, local groups with more direct access to 
vulnerable populations in non-government controlled areas of Syria are 
a means--possibly the only means right now--of providing a larger 
humanitarian response inside the country. But they are underfunded, 
understaffed, and undertrained in international humanitarian 
principles. U.S. government agencies working in the region are aware of 
and connected to many of these organizations as part of efforts to 
nurture a democratic civil society in the future Syria. However, rather 
than waiting for that time, the U.S. should be actively engaging with 
the groups that wish to do humanitarian aid now. The U.S. should be 
training, equipping and mentoring them so that when the time comes for 
them to work with the vulnerable populations in a peaceful Syria, they 
have the experience and collaborations that make their work immediately 
effective.
Iraq
    Refugees International first visited northern Iraq in October 2012. 
The number of Syrian refugees had just begun to grow at the rapid pace 
we see today--roughly 500 new arrivals every day. The vast majority of 
Syrian refugees crossed into Iraqi Kurdistan. A smaller number entered 
through the border crossing at al-Qa'im in Anbar province which at the 
time was still open on a limited basis. It has since been closed. In 
total, roughly 6,000 refugees crossed into Anbar and took up residence 
in the modest sized al-Qa'im camp.
    At that time, the KRG authorities were doing their best to respond 
to the needs of the Syrian refugees. However, as hundreds of new 
refugees entered Domiz camp on a daily basis, it was evident that the 
existing camp would soon reach its capacity and most new arrivals, 
irrespective of their ability to provide for themselves, would be 
forced to seek shelter and assistance in Erbil and other cities and 
towns throughout the region. From the beginning of the Syrian refugee 
crisis, Iraq did not garner the international attention that countries 
like Jordan and Lebanon did. The weak levels of financial support 
reflect this neglect. The United Nations humanitarian appeal has always 
included requests to support its work in Iraq, but donations 
specifically for the country have been sparse, and donations for 
regional work were not often directed to Iraq. This means that although 
the UN is present in Iraq, it has very little funding for its work. Few 
international NGOs arrived to support the refugee response in Iraq in 
the early stages, and those who did were unable to marshal much of 
their own funding.
    According to the most current UN funding data, Iraq has received 
only $43 million since the beginning of the Syrian crisis began--less 
than 15 percent of the recently updated appeal. Only Egypt has fared as 
badly as Iraq in garnering financial burden sharing. On RI's first 
visit to the KRG, winter was approaching and none of the aid agencies 
had resources to prepare for the cold and wet weather that would 
arrive. There were shortages of fuel, warm clothing, and medicines to 
address cold weather illnesses. Weak international financial support 
resulted in a very slow roll out of winterization projects, to the 
extent that when RI visited the camp again in April 2013, international 
agencies were still attempting to complete projects.
    Now, the arrival of summer is bringing new challenges. Camp 
residents in particular are worried about clean water, protection from 
the heat, and especially the lack of sanitation that will bring new 
diseases. Over the past couple of months, cases of hepatitis-A and 
diarrhea have increased in the camp, and the continuing flow of new 
arrivals has further exacerbated the problem of overcrowding. It 
appears refugees in Domiz camp will relive last winter's nightmare of 
late seasonal assistance during the scorching summer of northern Iraq 
with potentially more disastrous ramifications this time.
    Over the past year, Domiz has grown from a somewhat overburdened 
camp with insufficient assistance programs in place to a dangerously 
overcrowded community with decreasing order and regulation. In April, 
camp authorities stopped distributing tents because the camp had no 
space and inadequate infrastructure. Nevertheless, Syrians arrived 
every day and pitched their own tents wherever they could find space, 
or moved in with friends and relatives. A camp originally designed for 
10,000 people is now home to more than 35,000, many of whom have no 
access to clean water, sanitation services, or waste removal.
    Refugees in the main cities of northern Iraq are not faring much 
better. Though they officially have the same rights as Iraqis to access 
public services such as food assistance, public school enrolment, and 
medical care, the reality is that the social safety net is inadequately 
funded for Iraqis and leaves citizens and Syrian refugees alike without 
assistance. Syrian refugees are generally allowed to work without much 
objection, but jobs are difficult to find, just as they are for Iraqis, 
and Syrians are paid less for the same work. There is sometimes an 
initial food distribution that comes with registration, but no regular 
assistance to speak of. Moreover, as the number of Syrians seeking to 
register grows, the wait time for formal recognition by UNHCR has 
increased--thus prolonging the period of time before newly arrived 
refugees are eligible to receive the limited services available.
    Most urban Syrian refugee children are not enrolled in school 
because elementary education is in Kurdish. There are a few private 
Arabic language schools, but they are expensive and not centrally 
located. The UNHCR has offered minimal cash assistance in the urban 
areas, but the KRG is not equipped to fill in the gap.
    The government, the UN, and the NGOs in northern Iraq need support 
for summer preparations immediately, and in the urban areas this will 
include cash assistance programming to help people pay rent and utility 
bills. There are a number of local Iraqi NGOs in the KRG run by people 
who are experienced in humanitarian aid provision and standards. But 
most of these organizations struggle for funding, even those that have 
partnerships with the international NGOS present in northern Iraq. 
While the UN recently released ERF funds for NGOs working with Syrian 
refugees in Iraq, PRM's request for proposals from INGOs and local NGOs 
does not extend to this area of programs. The regional RFP as it 
pertains to Iraq is for work with Iraqi IDPs and returnees only, and 
this overlooks more than 100,000 people in need of humanitarian 
assistance.
    A complicating factor in providing adequate assistance to refugees 
currently being supported largely by the KRG is the obligation for most 
humanitarian funding to be approved by Baghdad. Officials in Baghdad 
appear to have taken the position that because the refugees in northern 
Iraq are Kurds, they are the sole responsibility of the KRG. While the 
KRG does not formally dispute this idea, it does object to not 
receiving a budget distribution that accounts for support to an extra 
100,000 or more people. It is unlikely at this point that the 
government in Baghdad would be willing to provide extra support for 
Syrian refugees in the KRG. Thus, innovative thinking on how the 
international community and particularly the U.S. can ensure adequate 
financial support for the humanitarian response in Iraq is essential to 
improving the conditions in which Syrian refugees currently live. As in 
Turkey, the good will and generous provision of aid for Syrians by the 
regional government is unsustainable. As the number of refugees 
continues to grow and threatens to outstrip the resources available to 
assist them, there is real concern that relations with the host 
communities may become more strained.
Lebanon and Jordan
    Lebanon and Jordan have received the largest number of Syrian 
refugees in the region: combined, the two countries host almost 800,000 
officially registered refugees. To date, Lebanon and Jordan have 
received nearly 80 percent (or $652 million) of the multilateral funds 
given in support of the Syrian Regional Response Plan. Nevertheless, 
the financing shortfall between what Lebanon and Jordan have received 
and what humanitarian agencies have estimated as the true need in these 
countries is over $1.5 billion, representing 72 percent of the plan's 
overall funding gap.
    By percentage of population, Lebanon is the country most impacted 
by Syrian refugees: roughly 10 percent of the 4.5 million people now 
living in Lebanon are Syrian refugees. In a context of the country's 
precariously balanced sectarian domestic politics, Lebanon is also 
suffering a spillover of tensions from the Syrian conflict. To date, 
the national peace has held. However, over the past month, Hezbollah 
has assumed both a more assertive and more public role in Syria's 
conflict. Tensions in northern Lebanon and the Bekaa Valley, where the 
majority of Syrians reside, are becoming increasingly apparent, and 
challenges in providing adequate shelter and health care in particular 
for Syrian refugees persist.
    Nonetheless, the Lebanese government has kept its border with Syria 
open in spite of significant strains on its ability to care for the 
expanding Syrian population in addition to its own nationals. As a 
result, the refugees are mixed into Lebanese communities and can be 
difficult to identify, document, and assist. The refugee response in 
Lebanon began as a cautious and geographically limited operation and 
grew into a countrywide humanitarian response that is now unique among 
Syria's neighbors for not having opened camps for the refugees. In 
Jordan, the main refugee camp, Zaatari, has swelled to almost 150,000 
residents. After 11 months of operations, the camp continues to suffer 
from a lack of coherent administration that can keep up with the huge 
number of daily arrivals. Camp security has deteriorated greatly over 
the past several months and visits to the camps by international 
visitors, which were once routine, are now off limit to many.
    The number of Syrian refugees residing outside of camps in 
Jordanian cities and towns is nearly double that of those living in 
Zaatari. Refugee service providers are hard-pressed to meet the needs 
of these non-camp refugees. Two new camps have been established in 
response to the constant increase. In March of this year, President 
Obama announced a second supplementary aid package of $200 million for 
Jordan to help the kingdom cope with the influx of refugees fleeing the 
deadly violence in Syria. A year earlier, the U.S. government provided 
Jordan $100 million in additional budget support to address the 
situation. Services for non-camp refugees in Jordan struggle to keep up 
with Syrian refugees' needs, and funding from the U.S. government 
specifically for NGOs working with Syrians has been quite limited in 
the past two years.
Syria
    The U.S. government has been contributing aid to the humanitarian 
crisis in Syria through the multilateral system and through some 
specific bilateral support, particularly for Jordan. RI appreciates and 
supports these efforts, and is pleased that the U.S. is one of the 
largest funders of humanitarian aid to the Syrian people at $500 
million. However, the size of the UN's most recent humanitarian appeal 
for Syria--$5 billion--is an indication of the breadth and depth of the 
crisis. Refugees International has been--and will continue to be--both 
a critic and supporter of the UNHCR. But on this particular occasion, 
we agree with the High Commissioner Antonio Guterres when he says, 
``Syria as a civilization is unravelling. The funds we are appealing 
for are a matter of survival for suffering Syrians and they are 
essential for the neighboring countries hosting refugees.''
    Further assistance--including inside of Syria--is possible through 
collaboration with the Syrian groups that have wide access to the 
interior of the country, and that are eager to partner with the U.S. 
government to make this happen. Multilateral funding will always matter 
in a humanitarian crisis, but with the restrictions in place for those 
agencies inside of Syria, the U.S. must immediately expand the aid that 
pushes into Syria. Cross-border aid is flowing into Syria from all the 
bordering countries, and in each of those countries there is a network 
of Syrian individuals and small organizations creatively and 
expeditiously shuttling much needed humanitarian supplies into 
communities throughout Syria.
    The Office of Transitional Initiatives (OTI) in USAID and Bureau of 
Conflict and Stabilization Operations (CSO) in the Department of State 
have been working on the ground in neighboring countries for more than 
a year to make contact with groups that seek to participate politically 
in the post-Assad governance of Syria. However, USAID's Office of 
Foreign Disaster Assistance (OFDA), which is responsible for getting 
humanitarian aid into Syria, has been slow to engage with Syrian actors 
that want to help deliver humanitarian assistance.
    RI strongly encourages OFDA to begin to seek out Syrian 
organizations that can deliver effectively assistance to people in need 
inside Syria and work hard to partner with these emerging humanitarian 
actors to get more aid inside Syria. It is likely that some training 
and capacity building will be necessary, and several Syrian 
organizations will be better suited to being subcontractors working in 
collaboration with larger more established international NGOs. 
Nevertheless, it is vital that they become a part of the platform 
through which the U.S. and EU deliver assistance.
    Beginning now to engage with these dynamic new humanitarian actors 
is an important step in meeting the most urgent existing needs. 
Building relationships with Syrian humanitarians will also be helpful 
for the country's future success. Even after the conflict in Syria 
ends, millions of people will need humanitarian assistance for some 
time. If there are a number of trained, motivated, and well-funded 
organizations that have learned to deliver assistance to the 
international standard, these nascent Syrian NGOs will be able support 
the longer-term recovery. Gaining experience in aid provision takes 
time and hands-on learning, and the sooner U.S. agencies and 
international NGOs begin the process of improving the quality of these 
NGOs' work, the sooner the U.S. can, through them, offer more to those 
who cannot flee.
    RI strongly endorses the idea of creating a small program 
administered by the Office of Foreign Disaster Assistance to engage 
Syrian NGOs, build their capacity to deliver humanitarian aid to 
international standards, and provide these organizations with small 
grants for them to begin to deliver assistance as U.S. implementing 
partners.
    Likewise, new thinking about the purpose and appropriateness of 
bilateral aid is in order. Well-timed and well-defined budget support 
to countries hosting Syrian refugees can save lives by allowing host 
countries to keep their borders open and provide lifesaving services to 
refugees, while encouraging their national populations to be welcoming 
and to see the refugees as benefits to society. For Syrian refugees, 
this is a particularly good investment as the huge majority of them 
continually express the desire to return to Syria as soon as it is 
safe. While we wait for this to happen, we can be helping refugees 
prepare for the transition to come.
    Prepared Statement of Jana Mason, Senior Adviser for Government 
              Relations, UNHCR Washington Regional Office

    Mr. Chairman and members of the Commission, I would like to express 
my appreciation for the opportunity to appear before you today to offer 
the perspectives and concerns of the UN Refugee Agency regarding the 
humanitarian situation of displaced Syrians. From June 2 to June 11, 
2013, I traveled throughout Jordan and Lebanon where I witnessed the 
staggering human consequences of the Syrian conflict. My testimony 
today will focus on some of the protection and assistance challenges 
and will also highlight the impact on host communities that are 
generously hosting Syrian refugees and yet are reaching a breaking 
point.
    UNHCR currently has three offices inside Syria and 13 in the four 
neighboring countries that have received the majority of Syrian 
refugees: Lebanon, Jordan, Turkey, Egypt and Iraq. We currently have 
over 2,000 staff working in the region. We lead and coordinate the 
response to the Syrian refugee situation in the host countries, working 
closely with host governments and with more than 100 UN and NGO 
partners. The two largest of these are the World Food Program, which 
supplies food rations and vouchers to the refugees, and UNICEF, which 
provides child protection services, education, and water and 
sanitation.
    Inside Syria, UNHCR has been present since the early 1990s, 
initially to support the Iraqi and other refugees that Syria has 
generously hosted for many years. Since mid-2011, when the crisis took 
a distinctly violent turn and started producing significant internal 
displacement, we have also been assisting Syrians uprooted inside the 
country with relief items and shelter assistance. We provide help 
wherever we are able to access people in need with a minimum guarantee 
of security. Unlike in refugee situations, there is no single agency 
with a mandate to protect internally displaced persons. Our assistance 
to Syrians who have fled inside their own country has therefore been 
part of a collective UN and NGO response effort led by the UN Emergency 
Relief Coordinator and the Office for the Coordination of Humanitarian 
Affairs (OCHA).
    UNHCR has seen a staggering increase in the numbers of refugees 
crossing into Lebanon, Jordan, Turkey, Iraq, and Egypt since the 
beginning of 2013. Civilians are crossing borders in record numbers 
because of increased fighting and as control of towns and villages have 
changed hands frequently. More and more civilians are crossing borders 
after having already been internally displaced; I learned on this trip 
that as the violence spreads some Syrian families are forced to 
relocate two or three times inside the country before finally crossing 
a border. Fleeing to neighboring countries is often a last minute 
decision, when lives are imminently at risk. As a consequence, refugees 
are fleeing with the bare minimum and have few resources at their 
disposal. It's also important to note that three quarters of the 
refugees are women and children, and in Jordan alone, nearly one in 
five refugees is under the age of four. The children pay the hardest 
price of all, with millions of young lives shattered by this conflict, 
and the future generation of an entire country marked by violence and 
trauma for many years to come. The refugee situation has escalated 
rapidly over the past six months, particularly when compared to the 
previous 20 months of the conflict. One million of the 1.6 million 
Syria refugees across the region today fled the country in the last six 
months alone. During the first five months of 2013, an average of 8,000 
Syrians crossed into Jordan, Lebanon, Turkey, Iraq and Egypt every day. 
These numbers are staggering and have put enormous strain on the 
humanitarian community.
    As of today, Lebanon hosts more than 520,000 Syrian refugees who 
are registered or pending registration with UNHCR. This number 
represents an 11% increase in Lebanon's population of 4.2 million. 
There are no official refugee camps in Lebanon, although some of the 
refugees live in informal camp-like settlements. Most are in urban 
areas in a wide arrange of accommodation--often barely livable. 
Neighboring Jordan is currently home to more than 475,000 Syrian 
refugees registered or pending registration. About 120,000 of these 
individuals live in Za'atri refugee camp, which sprang up from the 
desert and now comprises Jordan's fifth largest city. Turkey hosts more 
than 380,000 Syrians refugees, most of them in 18 camps along the 
border that are run by the Turkish government. Iraq is home to nearly 
160,000 Syrian refugees, of which 40,000 are housed in the overcrowded 
Domiz camp in the Kurdistan Region; nearly half the families there 
share tents due to lack of land. In Egypt, nearly 80,000 Syrian 
refugees are in urban areas. As dramatic as these numbers are, they 
likely undercount the actual situation. Many Syrians do not come 
forward for registration because they fear reprisals back home, or in 
some cases because they do not yet need assistance. Potentially 
hundreds of thousands of Syrian refugees throughout the region are not 
counted in official statistics.
    The December 2012 Regional Response Plan (RRP) issued by UNHCR and 
our partners was based on projections of 1.1 million Syrians through 
June of this year. That figure was reached in March and by June had 
been far exceeded; yet, it was the funding appeal on which 
contributions by donor governments were based. At the end of last week, 
an updated RRP was issued, based on an anticipated 3.45 million Syrian 
refugees by the end of this year. This updated regional response plan 
for Syrian refugees totals $2.9 billion. The governments of Lebanon and 
Jordan are also appealing for funds, asking for $449 million and $380 
million, respectively. The humanitarian appeal for inside Syria, which 
was also released last week and is known as the SHARP, is for $1.4 
billion. This adds up to more than $5 billion, including the appeals by 
host governments, and represents the largest humanitarian appeal in 
history. With more than $1 billion received so far in 2013, a further 
$4 billion is needed to meet the basic protection and assistance needs 
of Syrian refugees and internally displaced Syrians for the remainder 
of this year.
    Statistics and data help us understand the scope of the refugee 
crisis, but cannot begin to capture the sense among refugees and host 
communities that they are being overwhelmed by an increasingly bloody 
conflict with no end in sight.
Key Messages from UNHCR
    1. Open borders. UNHCR is calling upon all governments in the 
region to keep their borders open--or in some cases to fully re-open 
borders to provide access to their territory for all those in need of 
international assistance. We are particularly grateful for the 
commitment offered by neighboring governments to protect Syrian 
refugees. By taking in thousands of new refugees every day, the 
countries on the front line of this crisis are saving lives and 
supporting families and communities. Very importantly, they're also 
helping Syrians prepare for an eventual return to their homeland, which 
all of the Syrians I met are hoping for.
    2. Need for safe shelter. The mass influx of refugees has 
overwhelmed camps across the region, leading to overcrowding and 
numerous concerns. As summer approaches, communicable and waterborne 
diseases become a major concern. However, while the media has largely 
focused on refugees in camps, the vast majority, 77% of Syrian 
refugees, live in urban settings where they face particular challenges. 
High rental costs (often for substandard or even unlivable units), lack 
of job opportunities, and rapidly dwindling resources are making life 
increasingly difficult for urban refugees throughout the region, often 
forcing families to turn to negative coping mechanisms such as child 
labor, early marriage, and other forms of exploitation to make ends 
meet. Financial assistance has been consistently flagged as a critical 
need and top priority for non-camp refugees to meet the growing cost of 
living, ensure protection and prevent families from slipping into 
destitution.
    3. Regional stability and the need to support host countries 
financially and politically. Jordan, Lebanon, Turkey, Iraq and Egypt 
have welcomed over 1.6 million refugees across their borders since the 
beginning of the conflict, but ever growing numbers are putting 
increased stress on already strained public resources, as well as on 
host families. If additional support is not forthcoming, acceptance by 
host communities towards refugees may soon diminish, threatening to 
further destabilize this already fragile region. I heard about this 
over and over during my trip. I was told that host communities were 
initially welcoming to the refugees, with many landlords deferring rent 
and neighbors providing assistance. Recently, however, the tide has 
clearly turned and tensions with host communities are growing--leading 
to the threat of violence and instability.
Jordan
    The majority of 475,000 Syrian refugees in Jordan live in urban 
areas throughout the country, with 120,000 currently residing in 
Za'atri camp near the northern city of Mafraq. The rising numbers have 
strained host communities' ability to absorb newcomers. As a result, 
the Government of Jordan requires that Syrians entering the country 
receive assistance in camps. Despite this directive, many refugees 
continue to seek safety among the Jordanian population.
    UNHCR and partner organizations are working around the clock to 
provide shelter and life-saving assistance in camps (Za'atri and two 
smaller camps originally used as transit facilities). This assistance 
is key not only to respond to the overall refugee influx but also to 
maintain protection space for Syrians within Jordan itself. UNHCR is 
currently working with the Government and partner agencies to establish 
a second major camp, Azraq, also in northern Jordan, which is intended 
to house up to 130,000 refugees. The opening date is dependent on 
completion of infrastructure, including water, sanitation and hygiene 
facilities.
    In addition to camp-based activities, support to refugees in urban 
communities and to those communities themselves is critical. Jordan 
currently faces significant challenges in providing for the needs of 
its own population. For example, Jordan is the world's fourth most 
water-insecure country. Yet, Za'atri camp alone requires 925,000 
gallons of water every day. Syrians have access to food, fuel, health 
and education services that are subsidized by the Jordanian government, 
incurring a significant cost to the national budget. Jordan is also 
facing a very difficult economic situation, aggravated by dwindling 
revenues from trade, tourism and foreign investment due to the Syria 
crisis. The country has also had to agree to a tight adjustment policy 
with the International Monetary Fund, including the removal of 
government subsidies, which in the past have resulted in violent street 
protests. Its limited energy and water resources, social service 
infrastructure and public security forces are dramatically 
overstretched. Like Lebanon, Jordan also needs massive support to deal 
with the humanitarian tragedy caused by the conflict next door. 
Bolstering infrastructure and enhancing the living standards for all 
host community residents will benefit not only Syrian refugees but the 
region as a whole. Our 2013 priorities in Jordan include registration 
and documentation of all new arriving refugees; ensuring life-saving 
assistance such as establishing camp infrastructure, providing non-food 
items to those in need, and access to health care, food assistance, and 
clean water. Other protection activities such as preventing and 
responding to sexual and gender based violence are also critical.
    Education is another key priority because it provides children with 
a sense of stability and normalcy, in addition to a solid academic 
foundation for the future. Given that 54% of the Syrian refugee 
population in Jordan is under the age of 18, demands on the public and 
camp educational systems are enormous. Approximately 10,000 children 
are currently registered for formal education at Za'atri, although 
those numbers far exceed daily attendance. Among urban refugees, over 
32,000 children receive formal education in Jordanian public schools. 
Others, however, do not attend because of challenges that include lack 
of transportation and the fact that children often work to provide 
income for their families.
    Three significant risks and challenges face the refugee population 
in Jordan over the next six months. First, additional large-scale 
population movement is likely, either into or out of Syria, with its 
accompanying logistical complexities. Second, growing intolerance 
toward Syrian refugees in Jordanian society threatens to provoke 
backlash, such as restriction of services, sealed borders, or even 
community violence. One refugee family I met said they rarely venture 
outside their rented apartment due to the growing inhospitality. To 
mitigate this troubling sentiment, support to host communities has been 
increased and is a key component of the newest Regional Response Plan. 
UNHCR has constructed and is in the final stages of equipping a new 
registration site for urban refugees. Finally, refugees living in 
overcrowded camp conditions are especially vulnerable to disease 
outbreak along with other concerns. In Za'atri, for example, the harsh 
conditions and limited services have created serious tensions among the 
refugees themselves and have led to significant mental health 
conditions in both adults and children.
    UNHCR is grateful for Jordan's unwavering support for refugees 
throughout the past decades, during which it has offered a home to 
Palestinian, Iraqi, and now Syrian refugees. It is vital that this 
generous policy of keeping borders open is supported by the 
international community. Jordan is clearly feeling the impact of the 
Syrian war and, without adequate assistance, may no longer be able to 
provide a safety valve for Syrians fleeing for their lives.
Lebanon
    As the Commission is aware, the political and security situation in 
Lebanon is extremely precarious. There are reports of more spillover 
incidents along the border, with rockets fired from Syria continuing to 
strike Bekaa and the North, as well as prolonged unrest in Tripoli. The 
situation is exacerbated by Hezbollah engagement inside Syria. We have 
also begun to hear troubling reports of harassment against refugees and 
threats made against aid workers. On my recent trip, the heightened 
security concerns in the North were particularly palpable.
    Despite this situation, Lebanon hosts well over half a million 
Syrian refugees--the highest number in the region. This is in addition 
to the half a million Syrians residing in Lebanon before the crisis. 
Given Lebanon's small size and weak government, the proportional impact 
is huge. Current end of year projections put the number of Syrian 
refugees in Lebanon at over one million, which constitute 25% of the 
country's population.
    The refugee influx has put immense pressure on the small country's 
limited resources and compounded the current social and economic 
challenges. As in Jordan, host communities are increasingly 
apprehensive about the ability to absorb more refugees; however, this 
phenomenon is even more dangerous in Lebanon given the complex 
sectarian divisions. For example, on my recent visit to Lebanon we 
learned that the funerals of Hezbollah fighters killed in Syria are 
occasions for shots to be fired over Syrian refugee settlements. UNHCR 
and its partners are actively working inside Lebanon to address and 
mitigate these growing concerns, but the ability of humanitarian 
agencies to achieve access in this area is clearly limited.
    UNHCR is registering 2,500 people a day in Lebanon and, as is the 
case elsewhere, with the assistance of partners, also provides 
emergency and basic assistance to those waiting to register. Despite 
the overwhelming volume of arrivals, the Lebanese government has not 
faltered in its commitment to keep its borders open to Syrian refugees. 
It is therefore vital that Lebanon receives international support to 
continue this generous policy.
    Because there are no formal camps in Lebanon, the Syrian refugees 
spread over Lebanon live in a wide range of shelters, many of which I 
saw on my trip. Some refugees, as in Jordan, are living with relatives, 
while others rent apartments at prices that are increasingly on the 
rise. Others reside in unfinished buildings, which, interestingly, are 
seemingly everywhere in Lebanon but are nonetheless owned and require 
rent payments. UNHCR and our partners often provide ``sealing off 
kits'' to make the buildings more inhabitable. In other cases, UNHCR 
and our partners sign contracts with host families for the 
rehabilitation of their houses in return for hosting refugees. 
Approximately 2,000 refugees currently benefit from these contracts, 
which also assist the local community. Some refugees, including those 
deemed to be particularly vulnerable, are provided with what we and our 
partners call ``shelter boxes,'' which are essentially one-room wooden 
buildings. Increasingly, however, refugees are residing in ``collective 
centers'' in buildings such as unused schools, while others have 
established what is referred to as ``tented settlements''--in essence 
shanty towns comprised of wood or tin or any materials the refugees can 
purchase or scrounge. There are currently about 250 tented settlements 
in Lebanon, some of which existed prior to the crisis and were 
inhabited by Syrian migrant workers that have been joined by the new 
influx. These settlements are among the most difficult and depressing. 
UNCHR is trying its best to improve the standard of living in these 
locations, although as summer sets in the incidence of water related 
diseases becomes a pressing concern.
    While visiting with Syrian refugees in Lebanon, I often heard 
concerns about their children's education. Although 100,000 of the 
refugees are children of primary school age, only 30,000 are enrolled 
in Lebanese public schools. Others do not attend because of 
transportation problems or because the curriculum is difficult, as it 
is taught in English and French, whereas Syrian schools are only taught 
in Arabic. In some cases, Syrian families do not wish to send their 
kids to school because the Lebanese classes are co-ed. Other children 
are simply too traumatized to leave their parents' side to attend 
school. Whatever the reason, many school-aged children have now been 
out of school for over two years, with obvious implications for these 
kids and for the future of Syria.
    When children do attend school, they often require support, such as 
remedial classes to help them adapt and continue attending school. I 
visited a center that provided such services, along with fun activities 
and nourishing snacks to supplement what is often an insufficient diet. 
Most importantly, however, these programs provide a safe place and help 
foster a sense of normalcy. Many more such programs are needed.
    Unfortunately, child labor is on the rise as families struggle to 
pay rent and manage the rising cost of living. In a recent week, 
agencies identified 15 cases of boys between the ages of 12 and 15 who 
are working up to 11 hours a day, seven days a week. Most of these 
children--all of whom attended school back in Syria--are working as 
cleaners in restaurants and receive substandard monthly wages. Their 
families reported that the income they generate helps them cover the 
families' monthly expenses. The families were referred for rent support 
and the parents counseled on the need to enroll their children in 
schools or remedial classes. Funding for education remains limited, 
putting on hold programs to help families get their children back to 
school, increase psycho-social support for traumatized children, and 
put in place outreach plans to identify at-risk children.
Turkey
    In Turkey, UNHCR is working closely with the Turkish Government to 
assist and protect Syrian refugees. Unlike in the other host countries, 
however, the government in Turkey has taken the lead on the refugee 
response and runs 18 camps where refugees can access food, medical 
attention, education and vocational training, among other services. 
Recognizing that about half of the 380,000 Syrian refugees in Turkey 
live outside of camps, and that the ever-increasing numbers have 
overwhelmed host community resources, the Turkish government and UNHCR 
are putting more emphasis on reaching and supporting urban refugees. At 
planned coordination centers, UNHCR will be able to register and 
provide documentation to more refugees who have settled throughout the 
country. The centers will also provide protection counseling and 
support, including for children.
    It is worth noting that Turkey, more than other country in the 
region, has welcomed non-Syrian refugees fleeing the conflict in Syria 
as well. These non-Syrian refugees include Iraqis and Palestinians who 
had sought refuge in Syria over the past decade. It is critical that 
Turkey be encouraged and supported to maintain its commitment to open 
borders to support the seemingly endless flow of refugees seeking 
safety and protection. A shortage of space in the camps continues to be 
a major challenge for the authorities, with almost all of the 18 camps 
hosting more than their capacity, and continued pressure to take in new 
arrivals. Local authorities underline the fact that because of space 
constraints in the camps, the admission of new arrivals from the border 
is based, in part, on the number of spaces available. The Turkish 
government reports that it continues to provide humanitarian assistance 
to those waiting across the borders.
    Turkey has assumed the bulk of responsibility for assisting and 
protecting the refugee and has spent significant funds in doing so. 
International support is necessary for this to remain sustainable.
Iraq
    The vast majority of the 159,000 Syrian refugees in Iraq reside in 
the Dohuk, Erbil, and Sulaymaniyah governates in the Kurdistan Region 
of northern Iraq. An estimated total of 350,000 could cross the border 
before the end of the year. The majority of refugees enter Iraq through 
the Kurdistan Region, with 40% of them seeking shelter in two camps 
while the remainder lives in towns and villages, often in substandard 
housing. UNHCR's and its partners' main activities in Iraq focus on 
registering and protecting refugees, advocating for open borders, 
distributing life-saving items, providing essential services and 
counseling, as well as preventing and responding to sexual gender based 
violence.
    UNHCR continues to urge the Iraqi government to ensure that all 
borders remain open for Syrian civilians who need to flee the country. 
Since October 2012, the border at Al Qa'im in Anbar Governate has been 
closed to all but a few individuals allowed to cross for emergency 
medical care or family reunification. In addition, the closure of the 
border between the Kurdistan region and Syria since May 19 of this 
year, in both directions, has prevented refugees from crossing into 
Iraq.
    The two Syrian refugee camps in Iraq are established in Al Qaim and 
Domiz. Domiz hosts over 40,000 refugees and is critically overcrowded, 
with some 3,500 families obliged to share tents with other families 
because there is no space to construct new tents. In some cases, more 
than 15 refugees are living in tents designed for 5 people. Congestion 
and warmer temperatures are increasing the risks of disease and 
tensions between camp residents. The number of children under five 
years of age suffering from diarrhea has doubled since February. UNHCR 
continues to appeal for new land for additional camps.
    Urban refugees in Iraq are experiencing increasing poverty due to 
long periods of unemployment and lack of access to services. Tensions 
are rising within the refugee community as a result of the lack of 
freedom of movement, particularly for urban refugees who have no 
documentation. The soaring summer temperatures also pose challenges for 
urban refugees, many of whom cannot afford rising electricity expenses. 
Some urban refugees have expressed general fear of becoming victims of 
the unstable security situation in their host cities.
    Some refugees living in Al Qa'im refugee camp have begun returning 
to Syria--a result of both push and pull factors including frustration 
over living conditions, limited freedom of movement, and no access to 
the labor market or other sources of income.
Egypt
    Approximately 80,000 Syrian refugees have sought shelter in Egypt 
since the beginning of the conflict. The majority come from Homs or 
Aleppo, drawn to Egypt through family or community ties. It is likely 
that number of refugees will significantly increase by year's end, in 
part because some refugees currently in Lebanon or Jordan perceive 
better living conditions and economic opportunities in Egypt. Because 
there are no camps in Egypt, the refugees have found housing in Cairo 
neighborhoods and other urban areas. UNHCR operates a registration 
center in Cairo and mobile centers in Alexandria and Damietta that 
provide protection services for refugees throughout the country. The 
potential for secondary movement to Egypt from Lebanon and Jordan is 
considered significant as refugees seek countries that are more 
affordable for them to live with their families.
    The conflict in Syria has placed an unbearable strain on the 
population of Syria. Over 1.6 million Syrian refugees are now hosted 
across five countries. By the end of the year it is estimated that half 
of the population of Syria will be in need of aid. This includes an 
anticipated 3.45 million Syrian refugees and 6.8 million Syrians inside 
the country, many of whom will be displaced from their homes. 
Neighboring governments and their populations have been extremely 
generous in welcoming and assisting the refugees. Yet, the overwhelming 
message from my recent trip is that this welcome is now under severe 
strain as the Syrian conflict continues, the refugees keep arriving, 
and resources are increasingly stretched. If our goal is to encourage 
the host countries to keep their borders open and continue allowing 
refugees to access basic services, then we as an international 
community must do more to assist these governments and their local 
communities. While we must certainly be smart in how resources are used 
and prioritized, the reality is that significant additional resources 
will be needed for this year and likely beyond. New donors, including 
the private sector, must be mobilized, and development agencies must 
work hand-in-hand with the humanitarian organizations. The experiences 
of the refugees in the neighboring countries may well determine what a 
future Syria looks like, and the welfare of the host countries will 
determine the future stability and prosperity of the entire region.
Prepared Statement of Yassar Bittar, Government Relations and Advocacy 
              Associate, Coalition for a Democratic Syria

    Chairman Cardin and Members of the Commission, thank you for 
inviting me to testify on behalf of the Coalition for a Democratic 
Syria's work on Syrian refugees and internally displaced persons.
    What began in March 2011 as a peaceful revolution in Syria, with 
hundreds of thousands taking to the streets calling for freedom and 
democracy in the face of bullets and tanks, has evolved into what 
President of Oxfam America, Ray Offenheiser describes as a humanitarian 
catastrophe of ``Darfur-level insanity . . . if not worse.'' 
Furthermore, just last week, the UN made yet another aid appeal of $5 
billion, it's largest ever, maintaining that nearly half of the 
country's population will need aid.
    My comments today will focus on the Coalition's work for the 1.6 
million Syrian refugees and 4.25 million IDPs, many of whom have been 
displaced multiple times. I will then relay observations from my recent 
trips into Syria, during which I took a closer look into the depth and 
complexity of the humanitarian crisis on the ground.
    CDS represents the Syrian American community advocacy in support of 
the Syrian revolution. Our generous constituency throughout the country 
has been the driving force in our work for refugees and IDPs.
    According to data compiled by the American Relief Coalition for 
Syria, the Syrian American community contributed $45 million in 
humanitarian aid in 2012; this number is projected to double in 2013. 
The networks of these organizations are able to reach areas under 
extremely difficult circumstances, at times when access by the UN is 
very limited or altogether lacking.
    The international community's efforts in addressing the 
humanitarian crisis in Syria have somewhat improved in recent months, 
through the introduction of cross-line and cross-border aid deliveries 
by international NGO's albeit on a scale that does not measure up to 
the massive needs. I saw small examples firsthand in the IDP camps 
inside Syria. During my first trip, I saw very little presence of UN 
agency work; rather the tents were donated by non-profit organizations 
willing to cross the border. While on the border, two tents caught fire 
as families used candles to keep warm, killing 7 children; these 
children survived the landing of a mortar shell in their kitchen only 
to be killed by their supposed source of refuge. During my second trip, 
two months later, several UNHCR tents were set up throughout these 
camps as the number of IDPs at the border approximately doubled to 
reach 60,000 people.
    Unfortunately, other needs such as food and sanitation are in 
desperate condition. Refugees are forced to purchase their own food 
from local villages as their daily allocation of one loaf of bread, a 
tub of butter and jam, and one water bottle is often not sufficient. My 
experience as I traveled further into Syria was even more 
heartbreaking. As I traveled two hours into the country, I saw a 
physically beautiful Syria as a backdrop to the reality that the Assad 
regime has forced upon the people. We drove by homes that have been 
brought to the ground, places of worship that were destroyed and 
buildings that had been leveled. I saw families living in remnants of 
ancient buildings, and structures that once housed livestock.
    After arriving at the city of Kafrenbal, I made my way to the 
statistics bureau of the local civilian council, a body formed by 
activists to meet the needs of the population in the absence of 
government services. As I was visiting the school that housed displaced 
children, an attack helicopter flew over our heads, and the children 
reassured me, saying, ``If we are meant to die, it is God's will. Don't 
be scared.'' According to the head of the humanitarian bureau of the 
local council, the aid that we delivered had been the first delivery in 
at least one month; he delivered food baskets to women who accepted 
them with tears streaming down their faces. That night, we faced six 
hours of non-stop shelling by regime forces; the following day, we 
escaped to Turkey.
    On the Turkish side of the border, we stayed in the border town of 
Rehanlye, whose population has doubled since the beginning of the 
crisis, to reach 80,000 people. According to USAID, Turkey is home to 
approximately 351,000 registered Syrian refugees; of them, 100,000 
Syrians reside in non-camp settings. The total amount of aid spent in 
Turkey has reached $1.5 billion with the Turkish government providing 
over $600 million.
    Although I was not given access to the Turkish refugee camps, I 
visited several Syrian families living amongst the urban population. I 
saw very difficult living conditions for families paying up to 700 
Turkish pounds in rent; a family of 6 was living in a shed without 
running water or electricity. Another family of 7 was living on the 
rooftop of a building with a makeshift roof for coverage.
    The number of refugees and IDPs is at a scale in which, according 
to assessments from the ground, there is little room for error on 
behalf of the international community. These numbers will only increase 
as the situation on the ground is deteriorating by the day. Just last 
week, in the city of Qusayr, thousands of civilians were forced to flee 
to neighboring villages as Assad forces, backed by Iranian and 
Hezbollah militias, placed a vicious siege on the city of 25,000 
people.
    Although positive steps in aid delivery have been made, a 
disconnect remains in ensuring proper and efficient aid delivery on 
behalf of the international community. We believe it is important to 
partner with the Assistance Coordination Unit of the internationally 
recognized Syrian Coalition (ACU), the provincial councils in the 
liberated areas, as well as the Syrian NGOs that have proven to deliver 
to disaster stricken areas.
    More importantly, the U.S. has to demonstrate strong resolve and 
serious commitment to helping solve the conflict in Syria--the root 
cause of the humanitarian disaster. Absence of U.S.-led international 
action has permitted the crisis to fester and reach its current tragic 
proportions, and continued inaction will only exacerbate it. Without 
addressing the root cause of the problem, the illegitimate Assad 
regime, the staggering numbers of IDPs and relentless exodus of 
refugees will continue to overwhelm the humanitarian response and 
destabilize OSCE member Turkey, OSCE partner Jordan, and all of Syria's 
neighbors.
    Thank you very much.

                                  [all]



                                    

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
